<html>
<title> - IRRIGATION PROJECTS IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 113-505]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-505

                 IRRIGATION PROJECTS IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
         
         
         
         
                                      ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-750 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
     
         
         
         
         
         
         


                      COMMITTEE ON INDIAN AFFAIRS

                     JON TESTER, Montana, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
MARIA CANTWELL, Washington           LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel
              
              
              
              
              
              
              
              
              
              
              
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 10, 2014...............................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Tester......................................     1
Statement of Senator Udall.......................................    10

                               Witnesses

Cottenoir, Mitchel T., Tribal Water Engineer, Eastern Shoshone 
  and Northern Arapaho Tribes Office of the Tribal Water Engineer    41
    Prepared statement...........................................    43
Jim, Hon. Ruth, Council Member, Confederated Tribes and Bands of 
  the Yakama Nation..............................................    35
    Prepared statement...........................................    37
Old Coyote, Hon. Darrin, Chairman, Crow Nation...................    13
    Prepared statement...........................................    14
Paisano, Hon. Stuart, Governor, Pueblo of Sandia.................    23
    Prepared statement...........................................    24
Roberts, Larry, Principal Deputy Assistant Secretary, Indian 
  Affairs, U.S. Department of the Interior.......................     3
    Prepared statement...........................................     4

                                Appendix

Aguino, Hon. Marcelino, Governor, Ohkay Owingeh, prepared 
  statement......................................................    64
Begay, Hon. Edward T., Chairman of the Board of Directors, Navajo 
  Agricultural Products Industry, prepared statement.............    59
Chavarria, Hon. J. Michael, Governor, Santa Clara Pueblo, 
  prepared statement.............................................    61
Frost, Hon. Clement J., Chairman, Southern Ute Indian Tribe, 
  prepared statement.............................................    62
Inaba, Lon K., President, Yakama Reservation Irrigation District, 
  letter.........................................................    66
Response to written questions submitted by Hon. John McCain to 
  Larry Roberts..................................................    67
Trahan, Hon. Ronald, Chairman, Confederated Salish and Kootenai 
  Tribes, prepared statement.....................................    64
Vallo, Hon. Fred S., Governor, Pueblo of Acoma, prepared 
  statement......................................................    60

 
                 IRRIGATION PROJECTS IN INDIAN COUNTRY

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. Jon Tester, 
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    The Chairman. The Committee will come to order.
    Good afternoon to everybody. Today the Committee is holding 
an oversight hearing on the management of irrigation systems 
throughout Indian Country. Irrigation systems are vitally 
important for economic development on a number of reservations 
in this Country. Often these systems benefit both Indian and 
non-Indian communities. There are over 100 irrigation systems 
across Indian Country that are owned and managed by the 
Department of Interior. These systems range in size, the 
smallest may focus on only subsistence farming while some of 
the larger projects can span tens of thousands of acres of 
critical components for the tribal economies that they serve.
    All together, these irrigation systems reach about 1 
billion acres, billion with a B. A smaller set of revenue-
generating irrigation projects make up the bulk of that 
acreage, and BIA estimates that the projects lead to about $300 
million worth of agricultural crops grown each year.
    While these irrigation projects are important to 
reservation economies, they have been allowed to deteriorate 
for decades. In 2006, a GAO study found that these projects had 
hundreds of millions of dollars in deferred maintenance needs. 
And I can assure you, we have not made much of an investment 
since 2006.
    More recent estimates by the BIA place the maintenance 
needs at about $600 million. The GAO study also found some 
issues with staffing levels and the BIA's communication with 
the irrigation system stakeholders. I look forward to hearing 
about any improvements that the BIA has made on these issues 
from both our Federal and our tribal witnesses.
    This is not the first time the Committee has looked into 
this issue. Senator Barrasso presided over a field hearing in 
Wyoming on this issue last Congress. And from a review of the 
testimony submitted by witnesses today, it doesn't seem that 
much has improved. However, I do know that the BIA is taking 
steps to better assess the unmet needs. Solving the problem is 
largely an issue of funding, so I am happy to work with my 
colleagues to find ways to provide the resources to fix and 
improve and make these irrigation infrastructure projects 
functional once again.
    The Vice Chairman has also expressed interest in this area, 
with provisions he added to the Authorized Rural Projects 
Completion Act. The bill was reported out of the ENR Committee 
last fall and would address funding for both irrigation 
maintenance and future tribal water settlements.
    I want to thank everybody who is going to testify today, 
especially those who traveled great distances to be here. I 
appreciate you making that sacrifice. Our tribal witnesses 
should shed light on how important these irrigation systems are 
for our communities, and I suspect all the witnesses today will 
share ideas on how we can address fixing these irrigation 
systems as we move forward.
    Senator Barrasso is not here. When he comes, we will 
accommodate his opening statement. But for right now, I want to 
welcome our first witness, Mr. Larry Roberts, who is Principal 
Deputy Assistant Secretary for Indian Affairs at the Department 
of Interior. Mr. Roberts, I will remind you and well, before we 
get to you, we have the honorable Senator from Wyoming here. I 
will kick it over to you, John, for your opening statement.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you, Mr. Chairman. Thank you for 
holding this important meeting on Indian irrigation.
    I want to welcome my friend, Mitch, who is here, a tribal 
water engineer from the Eastern Shoshone and Northern Arapaho 
Tribes in Wyoming. I am looking forward to the testimony that 
you are going to present today. You testified at the field 
hearing in 2011 in Wyoming in Fremont County, and you are very 
familiar with the challenges that face irrigation projects, 
specifically in Wyoming.
    There are 16 irrigation projects that were initiated in the 
late 1800s and early 1900s by the Department of Interior. When 
they were first built, these Indian irrigation projects were 
intended to be a central component for the tribal economy. One 
of those projects is in the Wind River Reservation in my home 
State of Wyoming. The other irrigation systems are in States of 
members of this Committee. We have Montana, Washington, 
Arizona, New Mexico, Idaho.
    The Wind River irrigation project, like the 14 other Indian 
irrigation projects, is ``revenue generating,'' and in theory, 
is supposed to be self-sustaining. In 2006, the Government 
Accountability Office found that many of these projects were 
never completed and are not sustaining themselves. The 
Committee field hearing held in Wyoming in 2011 confirmed a 
serious backlog in deferred maintenance that exists and 
continues to grow.
    However, the projects are still a very important source of 
income and economic development. So Mr. Chairman, the Federal 
Government's promise to Indian Country to build and maintain 
these projects needs to be fulfilled.
    Last year I offered an amendment to S. 715, the Authorized 
Rural Water Projects Completion Act, which was pending before 
the Energy and Natural Resources Committee. That amendment, 
which was strongly supported by the Committee and the tribes, 
would provide much-needed assistance for the rehabilitation of 
Indian irrigation projects. I want to work with you, Mr. 
Chairman, and the Administration, in continuing to address 
these serious irrigation issues. The Department of Interior 
submitted to this Committee an accomplishments report in 
January of 2013 that summarized several policies established to 
improve the Indian irrigation program. So I look forward to 
hearing from the witnesses today on how the Department has 
implemented the policies and what other improvements are needed 
to address these important projects.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso, for your 
comments.
    Mr. Roberts, you and the second panel, I would ask you to 
hold our comments to about five minutes each, as close to that 
as you can make it. It will give us an opportunity to ask 
further questions. Know that you all, all of your full written 
statements will be a part of the official record. So I want to 
thank you all again for coming today.
    Larry, you may begin.

         STATEMENT OF LARRY ROBERTS, PRINCIPAL DEPUTY 
  ASSISTANT SECRETARY, INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Roberts. Thank you, good afternoon, Chairman Tester, 
Vice Chairman Barrasso, members of the Committee. My name is 
Larry Roberts, I am the Principal Deputy Assistant Secretary 
for Indian Affairs at the Department of Interior. I am a 
citizen of the Oneida Nation of Wisconsin.
    With me today is David Fisher, Chief of our Irrigation and 
Power Branch. I want to thank you for inviting the Department 
to provide testimony on irrigation projects in Indian Country. 
We appreciate the Committee's continued leadership on this 
issue. It is a daunting challenge, and it is a challenge that 
is similar to a number of different infrastructure issues we 
face across the Country.
    As the Committee knows, the Federal Government has been 
involved with Indian irrigation since the Colorado River Indian 
irrigation project that was authorized in 1867. Today the BIA 
irrigation program is responsible for oversight and 
administration of 15 revenue-generating Indian irrigation 
projects that provide services and deliver water to over 25,000 
customers and over 750,000 acres of land in Indian Country.
    BIA's irrigation asset inventory includes approximately 
6,200 miles of canals and drains and over 58,000 irrigation 
structures. The asset inventory and program responsibilities 
also include two BIA-owned facilities at non-revenue generating 
irrigation projects, including the Navajo Indian irrigation 
project in New Mexico and the Pyramid Lake irrigation project 
in northern Nevada.
    Historically, the Bureau has not charged sufficient 
operation and maintenance rehabilitation rates, O&M rates, to 
allow for adequate project maintenance and replacement. Over 
time this has resulted in less maintenance accomplished and a 
steady increase in deferred maintenance. This contributed to 
the critical reviews by the Office of the Inspector General in 
the 1990s and the Government Accountability Office in 2006.
    In response to these reviews, the Bureau implemented a 
number of reforms. The BIA has increased the level of 
engineering and technical support and management oversight for 
project managers, as recommended by the reports, by putting 
these projects under the direct supervision of regional or 
central irrigation office staff or by implementing more 
stringent protocols for engineering review and approval of 
actions taken at the projects. BIA is also holding water using 
meetings at least twice annually. This policy was implemented 
to solicited input from project stakeholders and provide 
transparency on the planned use of operation and maintenance 
funds.
    In addition to collecting more feedback on its management 
performance, BIA is providing more opportunity for direct 
stakeholder involvement in all or parts of its projects.
    And finally, as both Chairman Tester and Vice Chairman 
Barrasso have mentioned on a number of occasions, the issue of 
deferred maintenance. As part of our efforts to address that 
issue, we have been conducting condition assessments. Nearly 
all of those assessments are completed. We have three remaining 
assessments that are ongoing. Those are scheduled to be 
completed in 2017.
    So today, some of the 15 revenue-generating Indian 
irrigation projects operate with annual O&M fees that are near 
or at the full cost of service. But we believe that rates need 
to be set at levels to extend the growth of deferred 
maintenance. But the existing level of deferred maintenance, 
the existing $600 million backlog that we have, is such that it 
cannot be economically addressed through increasing O&M rates.
    The 2013 deferred maintenance estimate for BIA-owned 
irrigation facilities is approximately $600 million. We 
understand this is a longstanding issue and we know that the 
Department and BIA have worked closely with Committee staff 
over the years to address the issue. As both of you mentioned 
today, this Congress has introduced legislation that would 
provide resources to address the deferred maintenance backlog 
at many of the BIA irrigation projects. We stand ready to 
continue our work with the Committee on that legislation.
    Many of the key structures still function today. They are 
the same structures that were constructed over 100 years ago. 
In spite of their current condition, BIA estimates that 
irrigated lands served by the 15 BIA revenue-generating 
irrigation projects had approximately $300 million in revenue 
and supports almost 10,000 jobs. So with that, I am happy to 
answer any questions that the Committee may have.
    [The prepared statement of Mr. Roberts follows:]

    Prepared Statement of Larry Roberts, Principal Deputy Assistant 
       Secretary, Indian Affairs, U.S. Department of the Interior
    Good afternoon Chairman Tester, Vice Chairman Barrasso, and members 
of the Committee. My name is Lawrence Roberts and I am the Principal 
Deputy Assistant Secretary for Indian Affairs at the Department of the 
Interior (Department). Thank you for inviting the Department to provide 
testimony on Irrigation Projects in Indian Country. We appreciate the 
Committee's continued leadership on this issue, as it is a daunting 
challenge similar to other infrastructure challenges faced across the 
Nation.
    I will begin with a brief discussion of the history of the Bureau 
of Indian Affairs (BIA) Irrigation Program, provide an overview of the 
17 BIA irrigation projects, and discuss the work BIA has been doing on 
this issue.
Background
    The Federal Government has been involved with Indian irrigation 
since the Colorado River Indian Irrigation Project was authorized in 
1867. In the early 1900s, Congress began authorizing funding for 
construction of numerous Indian irrigation projects in the western 
United States. At that time, the Indian Irrigation Service led 
construction and early administration of the projects. In the late 
1930s and through the 1940s, as construction activities wrapped up on 
most projects, the Indian Irrigation Service ceased to exist and 
operation and maintenance, referred to hereafter as O&M, was 
transferred to the BIA, where it continues today. The BIA irrigation 
program is responsible for oversight and administration of fifteen 
revenue-generating Indian irrigation projects that provide service and 
delivers water to over 25,000 customers and 750,000 acres of land in 
Indian Country. BIA's irrigation asset inventory includes approximately 
6,200 miles of canals and drains and over 58,000 irrigation structures. 
The asset inventory and program responsibilities also include BIA-owned 
facilities at non-revenue generating irrigation projects, including the 
Navajo Indian Irrigation Project in New Mexico and Pyramid Lake 
Irrigation Project in northern Nevada. At these facilities the BIA does 
not assess O&M charges to irrigators; those charges are instead paid 
through appropriations or other means. The BIA irrigation program also 
provides limited support to over 100 irrigation systems that were 
constructed in the early 1900s, most of which are operated and 
maintained by tribes.
Overview of the Irrigation Projects in Indian Country
    BIA irrigation projects are vital economic contributors to the 
local communities and regions where they are located. Recent BIA 
studies show that the irrigation projects in Indian Country are in 
various states of disrepair. Many of the key structures still 
functioning today are the same structures that were constructed over 
100 years ago. In spite of their current condition, BIA estimates that 
irrigated lands served by the 15 BIA revenue generating irrigation 
projects add $490M in revenue and supports almost 10,000 jobs.
    The BIA operates its irrigation projects consistent with numerous 
laws, regulations and policy guidance and many projects have extensive, 
specific legislative histories. For example, specific statutory 
authorities require that BIA charge O&M assessments to both Indian and 
non-Indian customers, and to reimburse the Federal Government for such 
O&M costs. Most of the 15 revenue-generating projects receive little or 
no appropriated funds. Whenever possible and practical, BIA works to 
leverage cost-share opportunities with any other funding that is made 
available to tribes and water user organizations. BIA increased its 
funding request in the FY15 President' Budget Request for irrigation 
project rehabilitation to $2,612,000 from $998,000, an increase of 
$1,614,000. The appropriated Construction Funds for Indian Irrigation 
Projects are prioritized using multiple factors, including Critical 
Health and Safety factors and the Rehabilitation Priority Index (RPI) 
values determined from the BIA's Condition Assessment process. Projects 
are submitted from our Regional Office engineers and ranked by our 
Central Office engineering team using a formal ranking process. 
Emergency repair situations also come into play given the large 
deferred maintenance backlog, occasionally requiring the reprogramming 
of those funds to address those needs. Projects that have received 
these funds in the past include lining of the Tyhee Siphon, a critical 
feature for the Fort Hall Project in Idaho; repair of the Two Medicine 
Canal failure on the Blackfeet Irrigation Project in Montana; and 
repair of the Dr. Morrison canal failure on the Pine River Irrigation 
Project in Colorado. We will use this same process for determining the 
FY15 projects that will be funded. As discussed below, without new 
funding deferred maintenance remains an enormous challenge.
    Historically, BIA has not charged sufficient Operation, Maintenance 
& Rehabilitation (OM&R) rates to allow for adequate project maintenance 
and replacement. Over time, this has resulted in less maintenance 
accomplished and a steady increase in deferred maintenance. This 
contributed to critical reviews by the Office of Inspector General in 
the 1990s and the Government Accounting Office in 2006.
    Fifteen of the seventeen BIA projects operate with annual O&M fees 
near or at the full-cost of service. We believe that rates are now set 
at levels to stem the growth of deferred maintenance, but the existing 
level of deferred maintenance is such that it cannot be economically 
addressed through increased O&M rates. Over the past decade or more, 
BIA has made significant progress in systematically increasing O&M 
rates at projects where O&M rates are insufficient. In fact, over the 
past 10 years, O&M rates have increased approximately 29 percent on 
average at BIA irrigation projects, with one project's rates increased 
by 74 percent.
Program Accomplishments
    The BIA irrigation program has made significant strides over the 
past eight years in addressing a variety of issues critical to the 
program. These efforts include setting O&M rates at levels we believe 
are more sustainable for current operations, and these efforts need to 
continue in this area to ensure sustainability of operations and 
maintenance into the future.
    There are other Department initiatives BIA is implementing that 
address challenges at BIA irrigation projects. Some of these 
initiatives are in response to recommendations by the Department's 
Office of Inspector General and the GAO. One recommendation made in 
those reports was that BIA should increase the level of engineering 
technical support and management oversight for project managers by 
putting these projects under the direct supervision of regional or 
central irrigation office staff, or by implementing more stringent 
protocols for engineering review and approval of actions taken at the 
projects. In February 2007, BIA established policies to ensure adequate 
technical oversight and assistance is given to project managers of the 
BIA irrigation projects.
    In addition to these managerial reforms the BIA is working more 
closely with water users, which include the tribe(s), tribal members, 
and non-Indians, to be responsive to their concerns and giving the 
water users a greater role in Project operations.
    In July 2006, a policy was established requiring BIA to hold water 
users meetings at least twice annually. This policy was implemented to 
solicit input from project stakeholders and provide transparency on the 
planned use of O&M funds. In addition to collecting more feedback on 
its management performance, BIA is providing more opportunity for 
direct stakeholder involvement of all or part of the project. For 
example, the Wind River Irrigation Project utilizes a Memorandum of 
Agreement (MOA) with the Crowheart Bench Water Users Association, and a 
tripartite agreement among the BIA, the LeClair Unit and the Riverton 
Valley Irrigation District to conduct O&M activities on BIA's behalf.
    In 2008, the BIA revised irrigation regulations published in 25 CFR 
171, titled ``Irrigation Operation and Maintenance.'' The revision 
contains two key features that were included to benefit all BIA 
irrigation projects, Annual Assessment Waivers and Incentive 
Agreements. The Annual Assessments Waivers are designed to allow for an 
easy method to waive the O&M assessments if the BIA cannot deliver 
irrigation water to a customer. Past regulations required BIA to bill 
the water user and in order to receive a refund, the water user had to 
formally appeal the bill. The new regulations streamlined that process 
to minimize administrative requirements for both BIA and the water 
users. Many BIA projects have lands that have become idle and have not 
been farmed for many years. To assist the BIA and land owners, and 
provide incentive to potential lessees to bring these lands back into 
production, the new regulations allow for Incentive Agreements. 
Incentive Agreements allow the project to waive the irrigation O&M 
assessment for up to three years if the landowner or lessee agrees to 
make improvements to the lands to bring them back into production. 
These agreements benefit both the land owner and the project by 
improving land value and increasing Project O&M revenues.
Irrigation Project Condition Assessments
    BIA has taken measureable steps to acquire better information about 
the irrigation projects to better understand the deferred maintenance 
backlog. Beginning in 2007, as required by the Department and BIA's 
Asset Management Plans, BIA began conducting engineering condition 
assessments. Condition assessments identify the costs to repair and 
replace infrastructure and includes the development of priorities based 
on health and safety and the asset priority in relation to the overall 
project. Since 2007, condition assessments have been completed or are 
currently being conducted for all of BIA's revenue generating 
irrigation projects. These studies are funded through appropriations to 
BIA's irrigation program at the national level as opposed to passing 
this cost on to project irrigators. The remaining three assessments are 
scheduled to be completed by 2017.
    As the remaining condition assessments are completed, BIA's 
deferred maintenance estimate will more accurately reflect conditions 
in the field. In our next round of condition assessments we will also 
include estimates for road crossing and building repairs, which were 
not evaluated in the initial assessments. As water settlements are 
implemented, like the Crow Water Rights Settlement Act of 2010 and the 
Arizona Water Settlement Act of 2004, BIA's estimate of deferred 
maintenance will become more refined and better estimates of what might 
be needed should be available.
    Where tribes have received water settlement funding for irrigation 
rehabilitation, infrastructure is being rehabilitated and modernized to 
provide reliable irrigation service to customers of BIA-owned and 
operated facilities for years to come. One example of where water 
settlement funding is providing large-scale capital improvements and 
rebuilding an old, dilapidated system into a new, state-of-the-art 
project is in Arizona at BIA's San Carlos Irrigation Project, which 
serves the Gila River Indian Community.
Addressing Deferred Maintenance
    The 2013 deferred maintenance estimate for BIA-owned irrigation 
facilities is approximately $600 million. The Department understands 
that the deferred maintenance backlog at Indian irrigation projects is 
a longstanding issue. As discussed above, we have completed a number of 
assessments and anticipate completing the last three assessments by 
2017. Without significant capital investment, we believe overcoming the 
deferred maintenance backlog is unachievable given the current 
agricultural economies of irrigated agriculture in rural Indian 
Country.
    At the Wind River Irrigation Project in Wyoming, for example, the 
deferred maintenance backlog is approximately $35 million and the 
project assesses approximately 35,000 acres. Relying solely on O&M 
revenues would increase costs to such an extent that irrigated 
agriculture would likely not be economically viable. The Department and 
BIA worked closely with Committee staff on this issue over the years. 
This Congress introduced legislation that would provide resources to 
address the deferred maintenance backlog at many of BIA's irrigation 
projects. We stand ready to continue our work with the Committee on 
such legislation.
    This concludes my prepared statement. I will be happy to answer any 
questions you may have.

    The Chairman. Thank you for your testimony, Larry.
    We are going to flesh out this O&M fee thing a little more 
here. If the irrigation systems had no deferred maintenance, if 
this $600 million, if we spent the $600 million and took care 
of that backlog, are you saying that the O&M fees that are 
charged the users right now would cover? Are they adequate to 
cover any kind of maintenance over the next year?
    Mr. Roberts. My understanding of the situation is that at 
some of our projects, those rates are high enough. But if 
Congress were to pass legislation to affect the deferred 
maintenance issue, our goal would be to have all of those O&M 
fees basically be self-sustaining. So it is a careful balance, 
because obviously we want the farms and farmers to be 
economically viable. The goal is to have those rates reflect 
actual O&M costs. We are there at some of the projects right 
now.
    The Chairman. We are there with some of the projects and 
not with others?
    Mr. Roberts. That is right.
    The Chairman. Do you have the information to be able to do 
that, to know what to set those O&M fees at? And as long as I 
am talking, all the projects, small ones, big ones?
    Mr. Roberts. My understanding of the larger projects, there 
are 17 projects that the Bureau runs. There is another 100 plus 
projects that the Bureau does not run on a daily basis, those 
are run by tribes or water authorities. So with the 17 
projects, we have done an analysis in terms of how much those 
rates would need to be. I think those rates, quite frankly, 
would probably need for some of the projects to be implemented 
over time.
    The Chairman. Yes.
    Mr. Roberts. But I think that S. 715 also talked about 
implementing that maintenance over time as well. So that is 
sort of our goal, is when we are going to, if such legislation 
were to be enacted into law, that we don't want to end up in 
the same place we are right now.
    The Chairman. Okay. Governor Paisano of the Sandia Pueblo 
will testify that the Pueblos in his area get their water from 
a Bureau of Rec' owned irrigation system that BIA pays a local 
conservation district to provide sufficient amounts of water 
for the Pueblos' needs. So we have two Federal agencies 
involved in trust responsibilities for the Pueblos, yet 
Governor Paisano's testimony says that they are treated worse 
than any other water users on the system. Are you familiar with 
this?
    Mr. Roberts. I am familiar with the issue. I know that 
Assistant Secretary Washburn and more specifically, Director 
Mike Black, have been personally involved in those 
conversations, in negotiating O&M rates. We do have 
responsibilities there with all the Pueblos. Quite frankly, in 
those negotiations, my understanding is that we have withheld 
payment because we were basically advocating for the tribal 
rights there, and wanting those O&M rates to be set 
appropriately. So those conversations are ongoing and Director 
Mike Black is personally involved in those.
    The Chairman. You are dealing with the Bureau of Rec.
    Mr. Roberts. Bureau of Rec, but we are also dealing with 
the Middle Rio Grande Water District that we contract with.
    The Chairman. Okay. So do you have the ability to require 
those folks to treat folks equally? The conservation district 
in particular.
    Mr. Roberts. We have to get to a fair rate on O&M costs. 
And like I said, I know that we have withheld payments. And we 
are in active negotiations right now. So it is a complicated 
issue. We are working with them and like I said, I think 
Director Black has spent a lot of time on this issue 
personally.
    The Chairman. Do you consult with tribes on their funding 
priorities?
    Mr. Roberts. We do.
    The Chairman. So where are irrigation projects? When you do 
your consultation, are they on the list, number one, and where 
are they if they are?
    Mr. Roberts. We consult with tribes through the tribal 
budget committee that the Department of Interior has. All 
regions are represented there. It is an issue that is raised. 
We have 17 facilities, so it doesn't impact every tribe like 
for example education, law enforcement, social services. So it 
is a priority. I don't know that it is the top priority that we 
hear from Indian Country.
    The Chairman. But it is a priority, and the Department 
knows it is a priority for the tribes?
    Mr. Roberts. Yes, Senator.
    The Chairman. Senator Barrasso?
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Roberts, during recent drought years, the irrigation 
system operated by the Bureau of Indian Affairs on the Wind 
River Reservation experienced significant water shortages. In 
some cases, the agency had to shut offer water to several 
users.
    Meanwhile, same time, the neighboring Crowheart Irrigation 
System managed by the water users themselves, they appear to 
have done well during the drought, handled it much more 
efficiently. Could you explain what the Bureau of Indian 
Affairs is doing to improve management of the irrigation system 
so that all water users can continue to access water even 
during droughts? There is an interesting difference between 
Crowheart versus BIA.
    Mr. Roberts. Yes. My understanding of that situation with 
Crowheart is that that is in a separate drainage and that 
drainage had more storage there for that year, whereas, I think 
there were other drainages that didn't have as much storage 
capacity. But I think there were also issues with other 
drainages where essentially, some of the diversions that 
ultimately fed into those drainages had issues related to a 
pipeline. So there is a pipeline crossing one of the drainages 
that we were concerned about sending too much water and that 
that water would hit that crossing pipeline.
    So my understanding is that the BIA is working with the 
tribal water utility during the off-season here to move that 
pipeline so that it is not an issue, and that we will be able 
to send more water to some of those areas where we haven't. But 
I think ultimately, at least on some of those, it was limited 
storage capacity that led to that.
    Senator Barrasso. On the next panel, we are going to hear 
from Mitch Cottenoir, from Fremont County in Wyoming. According 
to his written testimony, little has changed on the Wind River 
Irrigation Project since the Committee's 2011 field hearing. He 
specifically notes that the BIA does not have a long-term plan 
for rehabilitation of this project. The Bureau of Indian 
Affairs Irrigation Program Overview dated January 3rd of last 
year, of 2013, cites persistent drought, water availability and 
tribal politics as unique challenges for this project.
    So can you talk a little about how these unique challenges 
prohibit the agency from developing a long-term rehab plan? And 
when will you provide this Committee with a long-term plan for 
addressing the deferred maintenance for the Wind River 
irrigation project?
    Mr. Roberts. In terms of a long-term plan addressing 
deferred maintenance, I think at this point, as I said, it is 
not a situation where we are going to be able to address it 
through raising O&M rates. It is a situation where we are able 
to stem some of the deferred maintenance through O&M rates now, 
but we are not able to do that with the current funding that we 
receive. So some of the things that we are doing, we see more 
droughts, we see more extreme weather conditions, we see more 
issues not only related to water delivery but other areas on 
Indian reservations. And so part of what we are doing is 
working with tribes to help develop that capacity in terms of 
dealing with those extreme weather events. The other thing that 
we are doing is we are working with the California Poly 
Irrigation Training and Research Center and we recently 
provided training at Wind River to better measure water, so 
that we have a more accurate read of the water in the system 
and make better use of that.
    So in terms of a, to get back to your final question about 
a long-term plan, Senator, I don't know that we have that plan, 
that we have a time frame for that plan. I think what we would 
want to do is finish all of the assessments. We have three more 
to finish by the end of 2017. That is our estimated time frame. 
And from there, we will have a much better sense of the overall 
deferred maintenance.
    Senator Barrasso. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Tester. I really 
appreciate your attention to this.
    I believe I told your office, Mr. Roberts, about an 
urelated question that I wanted to ask about. Because we have 
you here today, I want to just take a moment to bring up an 
unrelated issue that has recently come to my attention. It is 
my understanding that the K-12 Pinehill Schools in the Ramah 
Navajo Chapter have a heightened fire risk as a result of non-
working fire alarms, sprinkler systems and smoke detectors. 
These life and safety hazards have been allowed to persist. It 
is unacceptable; it puts the lives of children and their 
education and adults at serious risk. It is contrary to BIE's 
own policies and procedures.
    It is my understanding that Pine Hill's BIA elementary 
school that was constructed three years ago was never issued a 
final certificate of occupancy because it never had a working 
fire alarm. As a result, this new school has never opened. 
Again, the waste and lack of attention to vital safety concerns 
is unacceptable.
    I would ask Mr. Roberts and his team to look into these 
outstanding issues at Pine Hill and expedite steps to put in 
place these very simple but important safety measures.
    My question is, Pine Hill schools are not on the priority 
list of BIA school facilities in poor condition needing 
renovation or replacement. Yet there are life safety issues at 
its schools, including non-working fire alarms and sprinkler 
systems, certificates of occupancy taking months if not years 
to be issued, delaying the use of needed facilities. What steps 
will the BIA take right now to remedy these situations at BIA 
grant schools like Pinehill?
    Mr. Roberts. Thank you, Senator. I do know that our staff 
is working with your staff on this issue and we appreciate 
that.
    In terms of life safety issues with the school that you 
raise, that is of utmost concern to us. My understanding is 
that the southwest region does have a contract in place to 
address the fire alarm issue at that school, which is I guess 
campus-wide. And then you mentioned the new elementary school 
that's been constructed. My understanding is that we contracted 
with the tribe's school district for that construction and that 
it is 98 percent complete. We are working with the tribe's 
school board to bring that to full completion. So this is an 
issue that I will raise both with director Monty Roessell when 
I get back today and make sure that, obviously, the safety 
issue there on fire alarms we want to get fixed immediately.
    And this issue about construction, I think we need to 
figure out, since the tribe has contracted for that function, 
how to get that one across the finish line. My understanding is 
that it is about 98 percent complete.
    Senator Udall. Thank you very much. This issue has been 
lingering for a long time. It has been out there. So I think we 
really need to get expedited attention to it, and I appreciate 
your attention to it.
    Thank you, Chairman.
    The Chairman. Senator Udall, did you just say that they 
built a new school, didn't finish for three years and it is not 
open because they don't have a fire alarm system in it?
    Senator Udall. That is right. That is exactly what I said.
    The Chairman. We will have a hearing on this if you guys 
don't fix it. It should have been done three years ago. I mean, 
truthfully, this is the kind of stuff that gives government a 
bad name.
    Mr. Roberts. I agree.
    The Chairman. Senator Fischer isn't here, but I have some 
more questions on irrigation. The BIA oversees almost all those 
Indian irrigation systems. The BOR has some irrigation systems, 
too. Do you know if the BOR backlog is equivalent to or similar 
to what the BIA backlog is?
    Mr. Roberts. I don't know. That is information, Senator, 
that I can provide to the Committee. My understanding of BOR is 
that they construct the irrigation project then they turn it 
over, they don't operate it actually. So I don't know whether 
they have the same O&M issue or not. But that is something that 
I will certainly follow up with the Bureau of Reclamation and 
provide that information to the Committee.
    The Chairman. Okay. Thank you for that.
    Many of the recent water settlements authorized tribes to 
use the Self-Determination Act contracts to manage many aspects 
of the water infrastructure construction projects. However, a 
lot of these projects are overseen by Reclamation rather than 
the BIA. The Crow chairman who is sitting pretty darned close 
to you is going to testify that Reclamation has required the 
tribe to use their own funds and then get reimbursed, and this 
creates a burden, because there is not a lot of extra bucks 
flowing around. And it is contrary to the Self-Determination 
Act.
    Just a question for you, you have to speak for the 
Department, but why would the Department of the Interior refuse 
to comply with the Indian Self-Determination Act?
    Mr. Roberts. Chairman, I am not up to speed on the 
specifics of Reclamation's work with the Crow Tribe. But that 
is something that I can, information that we can provide to the 
Committee. I don't know if there were specific instances there 
or not. But is information I would be happy to provide.
    The Chairman. I would appreciate it if you would pass that 
on, Larry. And then the last question that I have is, have any 
of the tribes assumed management of the irrigation projects in 
part or in whole?
    Mr. Roberts. I know that the Duck Valley Shoshone Paiute 
Tribe, they have compacted to run the project there.
    The Chairman. Are there any others that come to mind?
    Mr. Roberts. San Carlos may have as well. But I would have 
to double check that.
    The Chairman. So when they did the contract, was there a 
lot of deferred maintenance on those when they did the compact?
    Mr. Roberts. I think for Duck Valley, their deferred 
maintenance was addressed in large part through their water 
settlement.
    The Chairman. Okay. I was just trying to see if I could get 
any comparison between tribally-compacted irrigation systems 
and their deferred maintenance versus the ones that the BIA 
oversees. But I want to make sure we are comparing apples to 
apples.
    Mr. Roberts. We can ask our staff to follow up with the 
Committee on that to see if there are any others that I am just 
not thinking of.
    The Chairman. I appreciate your work, Larry, in the 
Department. I appreciate your work with the irrigation systems. 
I think you understand how important they are to the economy, 
and you also understand if we lose this infrastructure, it is 
more costly to get back. The maintenance issue is big.
    And I don't mean to be too hard on you on the school thing. 
If it is our fault, if there is something we haven't done, that 
stops you from fixing that, then let us know and we will fix 
it. But if it isn't, then you can move on. You don't need to 
respond to that. Thank you very much.
    I am going to welcome our second panel up as Larry gathers 
up his papers. I appreciate you making the trek over.
    And on our second panel, we are going to have Chairman Old 
Coyote, Darrin Old Coyote, from the Crow Tribe of Montana. We 
are then going to hear from Governor Stuart Paisano of the 
Sandia Pueblo Tribe of New Mexico. Then we have Ruth Jim, 
Councilwoman from the Yakama Nation of Washington State. 
Finally, we are going to hear from Mitchell Cottenoir, an 
engineer with the Shoshone and Arapaho Tribes of the Wind River 
Reservation that Senator Barrasso talked about. I want to thank 
you all for being in front of us today. I would remind you to 
keep your statements to five minutes; it would be very, very 
much appreciated. It will allow time for questions.
    Senator Udall, did you want to introduce Governor Paisano?
    Senator Udall. Yes, I would like to introduce Governor 
Paisano, if that is okay.
    The Chairman. You bet.
    Senator Udall. Thank you, Chairman Tester. I will save any 
other comments for later.
    But first of all, this is tremendously important to the 
tribes in my State, what you are holding this hearing on, the 
irrigation infrastructure. And it is something that is often 
neglected. I really appreciate you making sure that this isn't 
overlooked.
    I would like to welcome to the Committee my good friend 
Governor Stuart Paisano. He is the Governor of Sandia Pueblo 
and Chairman of the Coalition of Six Middle Rio Grande Pueblos. 
Governor Paisano has served in Pueblo leadership for many 
years. He was first appointed as Governor in 2000, the youngest 
ever governor to represent the Pueblo. As Governor of Sandia, 
Governor Paisano represents a long history of farmers who rely 
on the Rio Grande for maintaining crop land in our arid State. 
The Governor can speak to the specific needs of members of his 
Pueblo who are dealing with crumbling irrigation 
infrastructure, and can also speak to the difficulty Sandia 
Pueblo has working with local entities and the BIA, so that the 
deliveries of the tribe's senior water rights are carried out.
    As Chairman of the Coalition of Six Middle Rio Grande 
Pueblos, Governor Paisano understands the larger issues that 
confront the six Pueblos who depend on the Middle Rio Grande 
for community agriculture. The Governor knows the challenges 
the River Pueblos face working with local conservation and 
irrigation districts and the need for funding Pueblo 
infrastructure. After years of drought and centuries of compact 
negotiation and water lawsuits, water is no simple issue for 
New Mexico.
    I look forward to the Governor's testimony, and look 
forward to working more with him to address the issues that 
Sandia Pueblo and the other Rio Grande Pueblos face.
    Thank you, Senator Tester.
    The Chairman. Thank you, Senator Udall.
    Chairman Old Coyote, you may begin.

   STATEMENT OF HON. DARRIN OLD COYOTE, CHAIRMAN, CROW NATION

    Mr. Old Coyote. Good afternoon, Chairman Tester, Vice 
Chairman Barrasso and members of the Committee.
    Thank you for holding this hearing on irrigation projects 
in Indian Country. This is an important subject for not only 
the Crow people but for Indian Country in general.
    My name is Darrin Old Coyote and I am the Chairman of the 
Crow Nation. I am honored to be here on behalf of the Crow 
Nation to testify on our experiences with the Crow Irrigation 
Project, or the CIP. I would like to provide the Committee with 
a summary of the historic issues we experienced with our 
irrigation system, what has been done and what is being done in 
the future to achieve a well-run and efficient irrigation 
system.
    The CIP is located on the Crow Indian Reservation in south 
central Montana and has been a subject of problems for many 
decades. Construction on the CIP began in the late 1800s, and 
currently consists of 11 units with a total area of over 60,000 
acres. Historically the CIP was operated and maintained by the 
BIA, who spent the majority of the operation and maintenance 
budget on personnel costs rather than actual maintenance on the 
system.
    The CIP was also underfunded, because the BIA failed to 
collect assessments from users of the system. Together, the 
deferred maintenance and underfunding resulted in a very run-
down and inefficient irrigation system. The historical problems 
at the CIP led to rehabilitation and improvement of the system 
being a major component of the Crow Tribe Water Rights 
Settlement Act of 2010. The Crow Water Settlement otherwise, 
$132 million for CIP rehab, of this amount $74 million was 
mandatory appropriations.
    We cannot emphasize enough the importance of this mandatory 
funding that was only possible because of Chairman Tester's and 
Senator Baucus's diligent efforts to find funding offsets. We 
would like to thank both of them for their hard work on behalf 
of the Crow Nation. We recommend that future Indian water 
rights settlements include mandatory funding as well.
    The CIP project also requires ongoing annual appropriations 
to maintain the construction schedule that we are finalizing 
with BOR. Most if not all current and future Indian water 
settlements have a similar annual appropriations need. We urge 
Congress to continue to appropriate all the necessary funds to 
complete the critical work on the CIP.
    Another aspect of our settlement that benefits the CIP is 
the provision that allows for flexibility in the transfer of 
funds between two large construction project accounts: the CIP 
and the MR&I Clean Drinking Water System. We have already 
noticed the benefits of carving this type of flexibility into 
legislation and recommend that future Indian water settlements 
include such provisions.
    The settlement also established BOR as the lead Federal 
agency, rather than the BIA. In 2011, we entered into a 638 
agreement with BOR to carry out the rehabilitation improvement 
activities. While the tribe supported BOR serving as the lead 
on the CIP moving forward, we have experienced early obstacles. 
In fiscal year 2012, there seemed to be very little oversight 
from BOR before the agency abruptly increased oversight in 2013 
and crippled the project's progress. This inconsistent 
oversight by BOR halted funding to the tribe from March 2013 to 
January 2014, and caused construction crew layoffs for the 
entire construction season. The BOR also demanded that the 
tribe advance construction funds from the tribe's general fund 
account and seek reimbursement. This is impossible for any 
tribe.
    After difficult discussions and negotiations with BOR, we 
have evolved to today's level of oversight that is a happy 
medium and have worked out a funding mechanism that does not 
require the tribe to advance the construction costs from our 
general fund budget. Despite these initial obstacles, 
construction commenced on the CIP in 2012 and we are now in a 
position to move forward aggressively to rehab the CIP. One of 
the benefits of funding irrigation projects is that the results 
are tangible. You can see the before and after pictures of the 
difference that Federal dollars make on the ground.
    Forty jobs will be created in 2015 and we will continue to 
increase the number of local jobs for the next 10 years. In 
closing, every Indian irrigation system is unique and poses its 
own challenges. In our case, we are dealing with several 
decades of deferred maintenance on the CIP that must be 
remedied on a strategic, forward-thinking approach in order to 
make the most out of the Crow water settlement funds. Even 
though we have experienced a few temporary setbacks in 
implementation of the settlement, we are headed in the right 
direction and are optimistic that we will be successful in 
restoring the CIP.
    Thank you again for the opportunity to provide testimony 
today. I am happy to answer any questions that the Committee 
may have.
    [The prepared statement of Mr. Old Coyote follows:]

  Prepared Statement of Hon. Darrin Old Coyote, Chairman, Crow Nation
I. Introduction
    Good afternoon. My name is Darrin Old Coyote and I am the Chairman 
of the Crow Nation. On behalf of the Crow Nation, I would like to thank 
Chairman Tester and members of the Senate Committee on Indian Affairs 
for holding this Oversight Hearing on Irrigation Projects in Indian 
Country and inviting the Tribe to provide testimony on our experience 
with the Crow Irrigation Project within the Crow Reservation.
    As I will discuss in further detail below, the Crow Irrigation 
Project (``CIP'') has been the subject of considerable problems on the 
Crow Reservation for many decades. Historically, the CIP was operated 
and maintained by the Bureau of Indian Affairs (``BIA''), with a 
majority of the Operation and Maintenance (``O&M'') budget weighted 
towards personnel costs and deferred maintenance that resulted in 
extensive deficiencies with the CIP. Funding problems were compounded 
by a failure to collect assessments from users of the system, which 
left the system seriously underfunded. Thus, in an effort to remedy the 
vast failings of the CIP, the Crow Tribe Water Rights Settlement of 
2010 was enacted to, among other things, rehabilitate and improve the 
CIP and provide meaningful Federal funding for such work. Today, we 
share our experience both in terms of the historic issues that have 
surrounded the CIP, as well as our current and future work with the 
Department of Interior through the Bureau of Reclamation as it has 
evolved since passage of the Crow Water Settlement legislation.
II. Brief Overview of Crow Irrigation Project
A. Brief History of Crow Irrigation Project
    The CIP is located on the Crow Reservation in south-central 
Montana. The Crow Tribe's first reservation, established in the Fort 
Laramie Treaty of 1851, was 35 million acres of land in Montana and 
Wyoming. In the Fort Laramie Treaty of 1868, the Crow Tribe agreed to 
reside on an 8-million acre reservation in south-central Montana and 
established the senior tribal water right claim of the Crow Tribe on 
May 7, 1868. Later land cessions from the Crow Tribe to the United 
States in 1882, 1891, and 1904 reduced the Reservation to its current 
2.3 million acre size today. Importantly, each land cession and 
subsequent land sale by the United States to meet its treaty 
obligations to the Crow Tribe constituted the original and early 
subsequent appropriations for the Federal CIP.
    In 1920, Congress passed the Crow Allotment Act, which triggered a 
massive land conversion from collective tribal to individual allotted 
Crow. The amount of land and the number of individual Crow allottees 
both doubled within fifteen years of this Act. However, for reasons 
outside of this testimony and despite a federal prohibition on the 
amount of acreage to ever be owned by a non-Indian individual (1,280 
acres) or a corporation (1,920 acres), hundreds of thousands of acres 
ultimately passed to non-Indians within the Crow reservation. That 
historical fact, the legal issues, and claims associated with the lands 
subject to the 1920 Act remain in dispute to the present day. See 1920 
Crow Allotment Act, Section 2, 41 Stat. 751 (1920); Crow Tribe v. 
Campbell Farming Corp., 31 F.3d 768 (9th Cir. 1994).
    The first irrigation works, the Reno Ditch, was constructed by the 
Federal Government in 1885. Surveys for the present CIP began in 1890. 
The first general authorization for the construction of the irrigation 
project on the Crow Reservation was contained in the agreement between 
the Crow Tribe and the United States, dated December 8, 1890, and 
ratified by Section 31 of the Indian Appropriation Act of March 3, 1891 
(26 Stat. 989, I Kappler 407, 432). Designs, surveys, and construction 
for the CIP were performed by the United States Reclamation Service, 
now the Bureau of Reclamation (Reclamation), for the BIA until 1922. 
Reclamation constructed nine of the eleven units from 1885 to 1922. 
Further construction on the irrigation units was performed by the BIA 
after 1922. The remaining two irrigation units were privately 
constructed, with lateral ditches off of the main canals constructed by 
Reclamation in the early 1920s to serve Crow allotted lands. Active 
expansion of the irrigation units ceased in 1925 and nearly all of the 
irrigation facilities were completed before 1940.
    Subsequent Congressional acts provided for continued construction 
and development on the CIP. The Act of July 1, 1932 repealed collection 
of construction costs against Indian owned lands under government 
irrigation projects until the land is no longer under Indian ownership. 
Public Law 79-468 (60 Stat. 333), Section 9 states, ``[n]o further 
construction work on the Crow Indian Reservation shall be undertaken by 
the United States without the prior consent of: (1) the Crow Tribe; (2) 
the irrigation district or districts affected, and; (3) the Congress of 
the United States, and without the prior execution of repayment 
contracts by non-Indian water users or irrigation district or 
districts, obligating the non-Indian lands for the repayment for their 
share of such construction costs.'' Public Law 79-468 further states, 
``that such consent shall not be necessary to construct laterals 
necessary to irrigate the lands within the CIP as now determined and 
classified as irrigable by the land designation committee report, as 
approved by the Secretary of the Interior in 1944.'' The Public Law 
also cancelled all back debt to the United States government owed by 
all Indian owned land and also cancelled United States government debt 
to the Crow Tribe for funds expended from treaty settlements for the 
irrigation projects.
B. CIP Overview
    The Crow Irrigation Project consists of eleven units with a total 
area of 63,365 acres. There are eleven diversion dams, one storage dam, 
nine canal systems and five drainage systems. Specifically, the eleven 
CIP irrigation units consist of the Bighorn, Agency, Forty Mile, Reno, 
Lodge Grass #1, Lodge Grass #2, Bozeman Trail, Upper Little Horn 
(Wyola), Pryor, Soap Creek, and Two Leggins Units. The Upper Little 
Horn Unit is also referred to as Wyola throughout as attributed to the 
fact that Wyola is the more common name used. Of these eleven units, 
the Bozeman Trail and Two Leggins Units are privately owned and 
operated, with the remaining nine CIP Units operated and maintained by 
the BIA's office located in Crow Agency, Montana. The rehabilitation 
and betterment of the Bozeman Trail and Two Leggins Units will only 
occur where land is held in Trust by the United States for the Tribe 
and Crow Allottees are beneficiaries.
    The CIP lands are located along the Bighorn and the Little Bighorn 
Rivers, Pryor Creek, Lost Creek, Sunday Creek, Soap Creek, and Lodge 
Grass Creek, all of which are tributaries to the Yellowstone River. The 
eleven units are located entirely in the Pryor, Lower Bighorn, and 
Little Bighorn Sub-basins, with the general direction of flow within 
both basins from southwest to northeast. Across the eleven units, the 
CIP consists of eleven diversion dams, one storage dam with a capacity 
of about 23,000 acre-feet, approximately 122 miles of main canals, 43 
miles of drains, 257 miles of additional canals (e.g., laterals, 
sublaterals, and wasteways), and approximately 3,800 irrigation 
structures (including both BIA and non-BIA-owned structures) such as 
checks, drops, headworks, flumes, siphons, turnouts, road crossings, 
spillways, and diversion dams. All units are gravity fed and lack any 
automated flow measurement or gate controls, with the exception of the 
Bighorn Unit, which has automated gates controlled by Reclamation at 
the main diversion point (headworks) at the Afterbay below the 
Yellowtail Dam and Bighorn Reservoir.
    In 2006, the CIP served approximately 1,118 water users. Current 
irrigation practices include both surface and sprinkler methods, with 
most irrigation methods consisting of flood, furrow, wheel-lines, gated 
pipe, and sprinklers with both unlined and lined ditches as 
distribution systems. Additionally, several select laterals and 
sublaterals have been converted to pipe, particularly in the Two 
Leggins Unit. The CIP serves both Tribal and non-Tribal landowners. 
Non-Tribal landowners in the two irrigation districts (Bighorn and 
Little Bighorn Districts) and private ditch companies (Bozeman and Two 
Leggins) in the CIP are organized as legal entities under Montana 
statutes. The Irrigation District Boards are chartered under state law 
and only represent owners of fee simple lands.
    Most of the reservation is comprised of grasslands and plains with 
the Wolf Mountains to the east and Bighorn and Pryor Mountains to the 
southwest. The climate on the reservation varies from humid above 7,000 
feet in the Bighorn Mountains, with 24 inches of annual precipitation, 
to semi-arid around 2,900 feet near Hardin, with 12 inches of annual 
precipitation. The primary source of water for the CIP originates on 
Tribal lands in the Bighorn Mountains. All CIP irrigation water is 
supplied by surface water sources. The primary irrigated crops are hay 
and alfalfa, irrigated pasture, sugar beets, corn, and grains. 
Precipitation averages 12-18 inches annually, with temperatures that 
vary from -48 to +110 degrees Fahrenheit, and the average growing 
season is 135 days from mid-May to the end of September.
    Over the years, the Tribe asserted that the BIA's role in 
overseeing and maintaining the CIP fell short of the United States' 
trust obligation to the Tribe and Crow allottees to maintain the 
system. We saw that the vast majority of funds on the CIP were weighted 
towards personnel costs rather than much needed O&M. Most recently, for 
example, there has only been one BIA operator for the entire CIP system 
who performs such operations with 25 year-old equipment. Accordingly, 
the CIP continued to wear down and operate at a sub-optimal efficiency 
level. Indeed, the dilapidated conditions on the CIP spurred the 
Tribe's efforts to ultimately settle the Tribe's claims against the 
United States for failing to fulfill its trust obligations to the 
Tribe, and which resulted in the Crow Tribe Water Rights Settlement Act 
of 2010.
III. Crow Tribe Water Rights Settlement
    The Montana Reserved Water Rights Compact Commission was 
established by the Montana legislature in 1979 for purposes of 
concluding compacts for the equitable division and apportionment of 
waters between the State and its peoples and the Indian Tribes claiming 
reserved water rights within the State. In 1999, the Montana State 
Legislature ratified the Crow Tribe-Montana Water Compact. MCA 85-20-
901 (1999). By entering into this Compact, all interested parties 
settled their claims with the State of Montana and the Crow Tribe and 
avoided costly and lengthy litigation.
    In 2010, the United States Congress passed the Crow Tribe Water 
Rights Settlement Act which further authorized, ratified and confirmed 
the Crow Tribe-Montana Water Rights Compact entered into by the Tribe 
and the State of Montana in 1999, and was signed into law by President 
Obama on December 8, 2010. Claims Resolution Act, P.L. 111-29, Title 
IV, 124 Stat. 3097 (``Crow Water Settlement''). One of the critical 
components of the Crow Water Settlement was Interior's obligation to 
fulfill its trust obligation to properly maintain the CIP, which the 
Tribe asserted the United States had failed to do. The Crow Water 
Settlement specifically provided for Reclamation to carry out such 
activities as necessary to rehabilitate and improve the water diversion 
and delivery features of the CIP, in accordance with an agreement to be 
negotiated between the Secretary of Interior and the Crow Tribe. Crow 
Water Settlement, Sec. 405. In 2011, the Tribe and Reclamation entered 
into a Self-Determination Contract, commonly referred to as a 638 
contract, to carry out the rehabilitation and improvement activities 
envisioned by the Crow Water Settlement.
    Significantly, the Crow Water Settlement also authorized $132 
million, adjusted to reflect changes since May 1, 2008, in construction 
cost indices applicable to the types of construction involved in the 
rehabilitation and improvement of the CIP. Of that authorized amount, 
$73, 843,000 was a mandatory appropriation, with the remaining 
$58,000,000 as authorized discretionary funds. Crow Water Settlement, 
Sec. 414(a). We cannot emphasize enough the importance of the mandatory 
funding that was included in our Settlement, which was a direct result 
of Chairman Tester and former Senator Baucus' diligent efforts to find 
funding offsets. As you are keenly aware, the mandatory appropriations 
provide direct funding to enable the Tribe to begin work immediately on 
the CIP. That being said, it has been emphasized that the discretionary 
portion of the BIA irrigation funding, approximately $8 million per 
year, will need to be substantially increased in the upcoming fiscal 
years to avoid layoffs and cyclical employment.
    Notwithstanding the anticipated increase in construction costs as 
the project progresses, the mandatory funding element of the Settlement 
is critical towards the overall intent and success of the Settlement. 
Thus, while we recognize that identifying offsets and providing for 
mandatory funding in Indian Water Settlements is a difficult task to 
say the least, we highly recommend that future Indian water settlements 
strive to include mandatory funding. We also urge Congress not to 
forget that the mandatory funding for our and other Indian water 
settlements will run out and we will need Congress to be prepared to 
appropriate the funds necessary to complete the critical work of our 
settlement, including our work on the CIP.
    Lastly, with respect to the Crow Water Settlement legislation 
itself, we were able to include a provision within the Settlement that 
allowed for flexibility between our two large construction projects--
the CIP and the MR&I System (clean drinking water system). Section 
414(h) provides that the Secretary of Interior may transfer funds 
between the CIP account and the MR&I account as the Secretary, with the 
concurrence of the Tribe, determines to be necessary. We have already 
noticed the benefits of carving this type of flexibility into the 
legislation, which in our case was especially important as we work to 
rehabilitate the existing CIP system and construct a new MR&I System 
within the Crow Reservation. Again, we would recommend that future 
Indian water settlements consider such provisions in their settlements 
if they envision needing a certain level of flexibility between their 
relevant construction activities.
IV. Current and Future Outlook for the CIP
    The Crow Water Settlement provides much needed funding and 
directives to Reclamation to carry out the necessary construction to 
improve the overall efficiency of the CIP. Unlike the historical 
management of the CIP by the BIA, the Crow Water Settlement provided 
that Reclamation would serve as the lead agency on the project going 
forward. While the Tribe certainly supported Reclamation serving as the 
lead on the CIP moving forward, we have experienced early obstacles 
(perhaps due to an expected learning curve by Reclamation with Indian 
irrigation projects as opposed to their standard non-Indian projects), 
both in terms of the level and balance of BOR oversight on the project, 
as detailed below.
    Once construction and improvement continues we expect that project-
wide efficiency of the irrigation system to the farm turnouts will be 
roughly 30 percent. Moreover, future irrigation water demands should 
decrease from the current existing irrigation system demands with 
improved system efficiency resulting from rehabilitation and betterment 
efforts. Efficiencies of 50-70 percent could potentially be realized 
through a combination of CIP rehabilitation and betterment efforts and 
improved system O&M. CIP rehabilitation and betterment, in conjunction 
with improved O&M, may also help to increase irrigation wastewater 
quality by decreasing pollutant concentrations within the system (e.g., 
sediments, chemicals, etc.). Reductions in water pollutant 
concentrations in wastewater ultimately, however, will be largely 
dependent on individual on-farm irrigation methods and practices.
    The total irrigated acres may increase if additional acres 
currently in TNA (Temporarily Non-Assessed Acres, which are currently 
not receiving water for various reasons) status can be brought into PA 
(Presently Assessed acres) status. Currently 8,200 acres of land are 
identified as TNA. Some of these tracts of land have potential to be 
irrigated and assessed with minor rehabilitation. The addition of on-
farm improvements in other areas may also add more irrigated land, as 
would the development of additional lands for irrigation (Dunmore 
Bench).
A. CIP 638 Contract
    As discussed above, the Crow Tribe entered into a 638 Contract with 
Reclamation to implement the CIP. In the first two years of the 
Settlement Act implementation, we experienced inconsistent oversight, 
both from the Tribe's perspective and Reclamation's perspective (as 
referenced above), that resulted in minimal funding to the Tribe from 
March 2013 to January 2014 and that caused construction crew layoffs 
for the entire irrigation season. In contrast, FY 2012 seemed to have 
very little oversight from Reclamation, and then an abrupt change 
occurred that resulted in significant Reclamation oversight--thus 
crippling the project's movement. Fortunately, after difficult 
discussions and negotiations, we have evolved to today's level of 
oversight that is a happy median, which we believe will lead to 
successful interactions with Reclamation in the future.
    Additionally, the Tribe encountered another substantial obstacle 
during this first phase of implementation under the 638 Contract when 
Reclamation demanded that the Tribe advance the funds for construction 
from the Tribe's general government operating fund (approximately $20 
million per year) and be reimbursed after each Reclamation audit. As 
would undoubtedly be the case for many tribal budgets, this became 
impossible for the Tribe (it would have caused other tribal department 
shutdowns and layoffs to provide the advance funding for the water 
projects). We voiced these concerns with Reclamation and ultimately 
worked out a mechanism in which the Tribe will no longer have to 
advance the funds from the Tribe's general fund. Hence, this year's 
2015 Annual Funding Agreement (AFA) appears to be on track and we are 
optimistic that the following important milestones will be achieved.
1. Crow Irrigation Project Master Plan
    The 638 Contract executed by the Tribe and Reclamation in 2011 
included a requirement that the parties draft a CIP Master Plan of 
project construction activities and responsibilities under the 
Contract. The Final Draft CIP Master Plan was reviewed by Reclamation 
and the BIA, with all final comments received on August 29, 2014. The 
Final CIP Master Plan was submitted to Reclamation last week for final 
review and acceptance.
    It is anticipated that Reclamation will provide a formal response 
to the Final CIP Master Plan in the form of a letter, and provided that 
no additional comments warranting revision in the Master Plan are 
supplied, the Final CIP Master Plan will then be provided for final 
signature by the Crow Tribe's Chairman, Crow Tribal Water Rights Office 
Director, and Engineer of Record (Bartlett & West). The Master Plan is 
important as an overarching document with generalized approval of 
projects over the duration of the settlement with expected oversight of 
project specifications, funding adjustments, and other issues as they 
arise.
2. CIP Environmental Assessment
    The CIP Environmental Assessment (EA) is also nearing completion. 
The CIP EA has been reviewed internally be Reclamation, and is 
scheduled to be distributed for a one month public comment period by 
September 15, 2014. Following the public comment period, a response to 
all comments will be prepared, and all EA documents are expected to be 
finalized. The issuance of a signed FONSI by Reclamation is anticipated 
by the end of 2014.
B. CIP Completed and Future Work
    Construction work on the Crow Irrigation Project under the 
Settlement Act commenced in 2012, and has continued since that time but 
in a somewhat reduced scope of activities. Construction work on 
projects during this timeframe has been primarily limited to smaller 
rehabilitation projects, and is contingent upon final sign off on the 
CIP Master Plan to proceed forward at full scale construction. A number 
of large rehabilitation projects are scheduled to commence construction 
in calendar year 2015, and include major structures on the Bighorn and 
Forty Mile Units, as well as the Willow Creek Feeder Canal (Lodge Grass 
Feeder Canal).
    Another significant issue that we have encountered (after engaging 
in more specific project reviews and implementation) is that the 
current condition of the irrigation structures and redesign options 
from original cost estimates by engineering consultants have increased 
in many cases (e.g., originally undersized bridges, culverts, etc.). 
This fact poses new challenges for the Tribe and Reclamation to fulfill 
the objectives of the CIP while staying within the $132 million budget. 
We recognize that this ultimately means that the Tribe will need to 
search for more creative solutions to resolve underlying unanticipated 
and major estimated design system flaws (based primarily on poor 
oversight and enforcement of the system by the BIA in the past).
    One of the benefits of funding the rehabilitation and improvement 
of irrigation systems on Indian Reservations is that the results are 
tangible. You can see a tangible difference that Federal dollars make 
on the ground in the day-to-day functionality of the systems in Indian 
country. As such, we have provided a few examples below of what the CIP 
looked like before and after the Crow Water Settlement implantation 
began to demonstrate how the appropriated funds have made a difference 
on the Crow Reservation to rehabilitate and improve much needed 
segments of the CIP.
 2012 Completed Projects
        a. Agency Diversion

    The Agency Diversion Riprap Repair project was completed by the 
Crow Tribe Water Rights Department (``CTWRD'') during the fall of 2012 
and spring of 2013. Work completed under this project generally 
consisted of:

  <bullet> Placing compacted soil to fill the eroded bank area on the 
        east side of the Little Big Horn River.

  <bullet> Placing geotextile fabric and rock to armor bank area.

  <bullet> Site grading, surface restoration and seeding.

        b. Lodge Grass No. 1

    The Lodge Grass Canal No. 1 Headworks rehabilitation project was 
completed by the CTWRD during the winter of 2012 and 2013. Work 
completed under this project generally consisted of:

  <bullet> Construction of cofferdams and dewatering in Lodge Grass 
        Creek.

  <bullet> Demolition of a portion of the old deteriorated headwall.

  <bullet> Construction of a concrete overlay over the deteriorated 
        headwall.

  <bullet> Construction of two new concrete walkway support walls.

  <bullet> Installation of a new steel walkway over Lodge Grass Creek.

  <bullet> Site grading, surface restoration and seeding.

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        c. Lodge Grass No. 2

    The Lodge Grass Canal No. 2 Headworks rehabilitation project was 
completed by the CTWRD during the winter of 2012 and 2013. Work 
completed under this project generally consisted of:

  <bullet> Construction of cofferdams and dewatering in Lodge Grass 
        Creek.

  <bullet> Demolition of a portion of the old headworks structure.

  <bullet> Construction of new headwork structures including cast-in-
        place concrete walls and slab and installation of precast 
        concrete box culverts and three slide gates.

  <bullet> Construction of two new concrete walkway support walls.

  <bullet> Installation of a new steel walkway over Lodge Grass Creek.

  <bullet> Site grading, surface restoration and seeding.

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

2. 2013 Completed Projects
        a. Bighorn High Check Emergency Repair

    Emergency repairs were completed in the spring of 2013 to stabilize 
the structure and to prevent its failure until it could be fully 
rehabilitated in FY 2015. Work consisted of the following:

  <bullet> Backfill was imported to fill in the erosion

  <bullet> Extended downstream concrete apron

  <bullet> Install EPDM liner with riprap ballast to reduce further 
        erosion

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
        b. Reno O&M Road Improvements

    It was determined that O&M road improvements were necessary from 
the Old Hwy 87 Frontage Road to the Reno Diversion Dam and Headworks. 
The improved road will provide all weather access to the Reno Diversion 
Dam and Headworks and Siphon. It will also help facilitate construction 
when the Reno Diversion Dam and Headworks and the Siphon are 
rehabilitated and for future O&M activities on the structures 
thereafter. The Reno Diversion Dam and Headworks is planned for 
rehabilitation in FY2015. The Reno Siphon is planned for replacement in 
FY2015. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        c. Rotten Grass Wasteway
    It was determined that stabilization and erosion protection 
improvements were necessary for the Rotten Grass Wasteway. Immediate 
efforts were needed to protect the structure and downstream channel 
from further erosion and damage, and allow for continued operation of 
the wasteway. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

3. 2014 Completed Projects
        a. High Check O&M Road Improvements

    It was determined that O&M road improvements were necessary from 
the Little Owl Loop Road to the vicinity of High Check. The improved 
road would provide all weather access to High Check and the turnout for 
Lateral 728. It would also facilitate construction when High Check and 
High Drop are replaced and for future O&M activities on the structures 
thereafter. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

4. Major Upcoming Construction Projects
    There are a number of projects that are planned for 2015.

        a. Willow Creek Feeder Canal Phase I, II, & III

  <bullet> Install riprap below the diversion dam and headworks 
        structures and install new slide gates on the headworks.

  <bullet> Replace the existing stop logs in the wasteway with a slide 
        gate and restore the radial gate to operation.

  <bullet> Remove brush and trees and reshape the canal prism.

  <bullet> Install earthen lining for select reaches of the canal to 
        address seepage concerns.

  <bullet> Construction of a new terminal drop structure.

        b. Reno Diversion Dam, Headworks, and Flume

  <bullet> Install one Obermeyer gate and construct a radial gate 
        sluiceway.

  <bullet> Remove and construct a new headwork structure.

  <bullet> Remove and replace existing ramp flume.

        c. Forty Mile Headworks & O&M Road

  <bullet> Remove the existing headworks and construct a new structure 
        with a new slide gate.

  <bullet> Remove the existing Parshall flume and constructing a new 
        Parshall flume.

  <bullet> Stabilize river bank adjacent to the new structure.

  <bullet> Complete improvements to the existing O&M road including 
        leveling, grading, and placing gravel.

        d. Bighorn High Check

  <bullet> Removing old structure and replacing with a new check 
        structure.

V. Conclusion
    Every Indian irrigation system is unique and poses its own 
challenges. In our case, we are dealing with several decades of 
deferred maintenance on the CIP that must be remedied on a strategic 
and forward-thinking approach in order to make the most out of the Crow 
Water Settlement funds. As we make progress, we will also have to 
ensure that the future funds for operation, maintenance and replacement 
are collected from users on a timely basis or we will face the same 
funding shortfalls that plagued the system in the past. Even though we 
have experienced a few temporary setbacks in the implementation of the 
Settlement, we are headed in the right direction and are optimistic 
that the CIP will ultimately be restored to the state it was originally 
intended to be for the Crow Indian Reservation.

    The Chairman. You are getting pretty darned good at this, 
Mr. Chairman. You have two seconds left. Thank you very much 
for your testimony.
    Governor Paisano, you are up.

  STATEMENT OF HON. STUART PAISANO, GOVERNOR, PUEBLO OF SANDIA

    Mr. Paisano. Good afternoon, and greetings from the Pueblo 
of Sandia. Chairman Tester, Vice Chairman Barrasso, and our 
good friend and Senator Tom Udall and Committee members, thank 
you for the opportunity to appear before you today and to 
testify concerning some of the problems with the irrigation 
infrastructure serving the Six Middle Rio Grande Pueblos in New 
Mexico.
    The Coalition of the Six Middle Rio Grande Pueblos, as the 
name implies, is comprised of the six Pueblos whose lands are 
within the Middle Rio Grande Valley: the Pueblos of Cochiti, 
Santo Domingo, San Felipe, Santa Ana, Sandia and Isleta. The 
Coalition, which used to be called the Pueblo Irrigation 
Committee, focuses exclusively on water and irrigation issues.
    The six Pueblos are the aboriginal occupants of the valley, 
which now includes close to a million people located primarily 
in and around the City of Albuquerque. The Pueblos' lands are 
largely rural in character and we continue to practice and rely 
on irrigated agriculture for our culture, as we have for 
centuries.
    Unfortunately, the six Pueblos, largely because they are 
located in the most populous area of the State, no longer have 
their own separate diversions and canals. Instead, the Pueblos 
now depend on irrigation facilities that are owned by the U.S. 
Bureau of Reclamation, but which are operated and maintained by 
an entity known as the Middle Rio Grande Conservancy District, 
or the MRGCD. Under Federal law the MRGCD is obligated to 
maintain certain on-Pueblo irrigation facilities and to deliver 
water to meet congressionally and federally recognized prior 
and paramount water rights of the Pueblos, without charge, in 
exchange for vital rights-of-way across the Pueblos.
    For congressionally-recognized water rights for the 
Pueblos' newly reclaimed lands served by the same Middle Rio 
Grande Project, the Bureau of Indian Affairs contracts with the 
MRGCD for operation and maintenance services. It is a 
complicated agreement and one that, frankly, has historically 
not worked for the Pueblos. Specifically, irrigation facilities 
that only serve Pueblo lands have not been maintained as well 
as those serving non-Pueblo lands. Consequently, the Pueblos 
often have a more difficult time than our non-Indian neighbors 
irrigating their lands and obtaining operations and maintenance 
services. Attached to my statement are some pictures 
illustrating the MRGCD's unequal maintenance of facilities on 
the Pueblo versus non-Pueblo lands.
    The irrigation facilities serving the Coalition Pueblos 
were not reviewed and evaluated by the GAO back in 2006 because 
they are not part of a BIA project, but it certainly would have 
been useful had the GAO done such a review.
    The BIA must do a better job in ensuring that the MRGCD 
operates and maintains facilities serving the Pueblo lands on 
an equal basis with facilities serving non-Pueblo lands. To its 
credit, the BIA has recently shown an interest in achieving 
this goal and Director Black has become personally involved in 
negotiating for a new O&M agreement between the BIA and the 
MRGCD. I also understand that Director Black and Assistant 
Secretary Washburn have worked to secure sufficient funds for a 
conditions assessment of irrigation facilities on Pueblo lands 
and that BIA expects to enter into a contract for this 
assessment work next month.
    While the Coalition Pueblos greatly appreciate Assistant 
Secretary Washburn's and Director Black's efforts, serious 
problems still remain. Each year the vast majority of the 
limited funds budgeted by BIA for operations, maintenance and 
betterment of irrigation facilities serving the six Pueblos 
goes for water delivery operations and routine maintenance, 
such as mowing and dredging, not betterment work. Thus, our 
antiquated and inefficient irrigation systems continue to 
deteriorate. Without improved and efficient irrigation systems, 
there is little incentive for our farmers to invest in higher 
value crops or to increase the acreage they irrigate.
    Inefficient systems also means that more water must be 
diverted from the Rio Grande, which is a river that is 
sufficiently over-appropriated. These problems were recognized 
several years ago by former Senators Domenici and Bingaman who 
co-sponsored legislation passed in 2009 known as the Rio Grande 
Pueblos Irrigation Infrastructure Improvement Act. It directs 
the Secretary, through the Bureau of Reclamation, to conduct a 
study of irrigation infrastructure serving all of the Pueblos 
in the Rio Grande Valley, based on the results of that study, 
to develop a list of projects to repair, rehabilitate or 
reconstruct irrigation infrastructure. The Act further 
authorizes an appropriation of $4 million for the study, and 
$60 million over a ten-year period for irrigation system 
repairs and projects to modernize our systems and to make them 
more efficient.
    Unfortunately, funds have yet to be appropriated for any of 
the work directed by the Act. To address this, Senators Udall 
and Heinrich recently introduced a drought relief bill, S. 
2470, which includes as one of its provisions reauthorization 
of the Pueblos Irrigation Infrastructure Improvement Act. This 
reauthorization would extend the time period for, and increase 
the amount of, funding under the Act. The Coalition Pueblos 
strongly support the reauthorization and the appropriations to 
accomplish the Act's purpose.
    Thank you again for inviting me to testify this afternoon 
and I will be pleased to respond to any questions.
    [The prepared statement of Mr. Paisano follows:]

 Prepared Statement of Hon. Stuart Paisano, Governor, Pueblo of Sandia
    Chairman Tester, Vice Chairman Barrasso and Committee members, 
thank you for the opportunity to appear before you today and to testify 
concerning some of the problems with the irrigation infrastructure 
serving the Six Middle Rio Grande Pueblos in New Mexico.
    The Coalition of Six Middle Rio Grande Pueblos, as the name 
implies, is comprised of the six Pueblo tribes whose lands are within 
the Middle Rio Grande Valley--the Pueblos of Cochiti, Santo Domingo, 
San Felipe, Santa Ana, Sandia and Isleta. The Coalition, which used to 
be called the Pueblo Irrigation Committee, focuses exclusively on water 
and irrigation issues.
    The six Pueblos are the aboriginal occupants of the Valley, which 
now includes close to a million people located primarily in and around 
the City of Albuquerque. Unlike Albuquerque and its environs, however, 
the Pueblos' lands are still largely rural in character and we continue 
to practice and rely on irrigated agriculture, as we have for 
centuries. And--unlike relatively newer irrigation projects serving 
lands that were never historically irrigated--the Pueblos' agriculture, 
and the diversions, ditches and water associated with it, have long 
been an integral part of Pueblos' culture and traditions.
    Unfortunately, the six Pueblos, largely because they are located in 
the most populous area of the state and surrounded by non-Indian lands, 
no longer have their own separate diversions and canals. Instead, the 
Pueblos now depend on irrigation facilities that are owned by the U.S. 
Bureau of Reclamation, \1\ but which are operated and maintained by an 
entity known as the Middle Rio Grande Conservancy District or the 
MRGCD. Under federal law the MRGCD is obligated to maintain certain on-
Pueblo irrigation facilities and to deliver water to meet 
Congressionally-recognized prior and paramount water rights of the 
Pueblos, without charge, in exchange for vital rights-of-way across the 
Pueblos. For Congressionally-recognized water rights for Pueblo ``newly 
reclaimed lands'' served by the same Middle Rio Grande Project, the 
Bureau of Indian Affairs contracts with the MRGCD for operation and 
maintenance services. It is a complicated arrangement and one that, 
frankly, has historically not worked well for the six Pueblos.
---------------------------------------------------------------------------
    \1\ Except for the Isleta diversion dam, which is owned by the 
Pueblo of Isleta and is currently operated by the MRGCD without any 
legal authorization.
---------------------------------------------------------------------------
    Specifically, irrigation facilities that only serve Pueblo lands 
have not been maintained as well as those serving non-Pueblo lands. 
Consequently, the Pueblos often have a more difficult time than our 
non-Indian neighbors irrigating their lands and obtaining operations 
and maintenance services. Attached to my statement are some pictures 
illustrating the MRGCD's unequal maintenance of facilities on Pueblo 
versus non-Pueblo lands. The irrigation facilities serving the 
Coalition Pueblos were presumably not reviewed and evaluated by the GAO 
back in 2006 because they are not part of a BIA project, but it 
certainly would have been useful had GAO done such a review.
    The BIA must do a better job in ensuring that the MRGCD operates 
and maintains facilities serving Pueblo lands on an equal basis with 
facilities serving non-Pueblo lands. To its credit, the BIA has 
recently shown an interest in achieving this goal and Director Black 
has even become personally involved in negotiations for a new O & M 
agreement between the BIA and the MRGCD. I also understand that 
Director Black and Assistant Secretary Washburn have worked to secure 
sufficient funds for a conditions assessment of irrigation facilities 
on Pueblo lands and that BIA expects to enter into a contract for this 
assessment work next month.
    While the Coalition Pueblos greatly appreciate Assistant Secretary 
Washburn's and Director Black's efforts, serious problems remain. Each 
year the vast majority of the limited funds budgeted by BIA for 
operations, maintenance and betterment of irrigation facilities serving 
the six Pueblos goes for water-delivery operations and routine 
maintenance, such as mowing and dredging, not betterment work. Thus, 
our antiquated and inefficient irrigation systems continue to 
deteriorate. Without improved and efficient irrigation systems, there 
is little incentive for our farmers to invest in higher value crops or 
to increase the acreage they irrigate. Inefficient systems also mean 
more water must be diverted from the Rio Grande--a river that is 
significantly over-appropriated.
    These problems were recognized several years ago by former Senators 
Domenici and Bingaman who co-sponsored legislation passed in 2009, 
known as the Rio Grande Pueblos Irrigation Infrastructure Improvement 
Act. This Act was drafted primarily by Mike Connor, the current Deputy 
Secretary of the Interior and former Commissioner of the Bureau of 
Reclamation. It directs the Secretary, through the Bureau of 
Reclamation, to conduct a study of irrigation infrastructure serving 
all of the Rio Grande Pueblos and, based on the results of that study, 
to develop a list of projects to repair, rehabilitate or reconstruct 
irrigation infrastructure. The Act further authorizes an appropriation 
of $4 million for the study, and $60 million over a ten year period for 
irrigation system repairs and projects to modernize our systems and 
make them more efficient.
    Unfortunately, funds have yet to be appropriated for any of the 
work directed by the Act. To address this, Senators Udall and Heinrich 
recently introduced a drought relief bill, S. 2470, which includes as 
one of its provisions reauthorization of the Pueblo Irrigation 
Infrastructure Improvement Act. This reauthorization would extend the 
time period for, and increase the amount of, the funding under the Act. 
The Coalition Pueblos strongly support this reauthorization and the 
requisite appropriations to accomplish the Act's purposes.
    Thank you again for inviting me to testify this afternoon and I 
will be pleased to respond to any questions.
    Attachments
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, Governor. Thank you for your 
testimony.
    Council Member Ruth Jim, you may proceed.

STATEMENT OF HON. RUTH JIM, COUNCIL MEMBER, CONFEDERATED TRIBES 
                 AND BANDS OF THE YAKAMA NATION

    Ms. Jim. [Greeting in native tongue.]
    Good afternoon. My name is Ruth Jim. I would like to 
recognize the Creator, because water is very sacred. Without 
water, irrigation can't happen.
    Thank you for allowing me to testify today. I will now 
summarize my testimony. I am a member of the Yakama Nation's 
Tribal Council and Chair of the Tribal Council's Roads, 
Irrigation and Land Committee. Our Tribal Council is the 
governing body of the Yakama Nation and of the Yakama 
Reservation.
    I am testifying today because the Bureau of Indian Affairs, 
through the Wapato Irrigation Project, WIP, needs to satisfy 
its trust duty to the Yakama Nation and its members. WIP has 
had some serious problems, and it is falling apart. There have 
been numerous studies of the WIP by the GAO and the Department 
of Interior. The BIA knows what the problems are. The BIA needs 
to fix WIP so WIP can deliver water to our Indian lands.
    The problems can be solved if the BIA spends the money 
needed to fix WIP, so that it can deliver water reserved in our 
treaty of 1855 to our lands. Old structures need to be replaced 
or repaired. WIP is 100 years old this year, and needs work. 
The problem is especially hard for our Indian lands. Most of 
the lands within WIP are owned by the Yakama Nation and its 
members. Many of our Indian lands cannot get water from WIP 
because the project cannot physically deliver water to all of 
the land within the project boundaries. In some cases, it would 
require new canals, or in other cases, the lands, for instance, 
on steeply-sloped areas, wouldn't hold water.
    However, WIP still continues to bill us for O&M, even when 
water isn't delivered. Many of our lands are also not being 
irrigated because the BIA has not helped us get the lands 
developed. The BIA has both failed to help Indian farmers 
develop the lands and failed to get the land leased by others 
if the Indian owner wants to lease the land. Many of our lands 
are also in probate and are fractionated, which makes 
management of them difficult. In some cases, especially when 
highly fractionated, we do not even know all of the owners. The 
lands that are not in production are referred to as idle lands.
    Prior to 1980, the BIA helped fund the WIP operating 
budget. Suddenly, the BIA designated WIP as a Class 1 self-
sustaining project, even though it had never been self-
sustaining. The combination of having 20 percent or more of the 
project lands in idle status, the loss of BIA funds and the 
sugar beet industry leaving the area all occurred in close 
proximity to one another and created a serious financial burden 
on WIP. While the BIA had already totally shirked its 
responsibility to repair the project, it then got worse and 
deferred maintenance became standard operating procedure.
    There are solutions to these problems and we are working on 
them. There are identified lands we hope to move to production. 
There are areas outside of WIP, but on the reservation on which 
we are examining the potential of transferring WIP water 
rights. We are trying to be innovative, but we cannot solve 
these problems without more time and an influx of Federal 
funds. The Congress should direct that the Class I self-
sustaining status be changed to its former status.
    We also ask that Congress please enact S. 715, including 
the Barrasso amendment, which is now Title IV of that bill, as 
reported by the Energy and Natural Resources Committee. Title 
IV will quite appropriately allow projects such as WIP to 
access the Reclamation Fund. Washington State is a Reclamation 
Act State and that statute creating this fund indicates that it 
is ``to be used in the examination and survey for and the 
construction and maintenance of irrigation works for the 
storage, diversion and development of waters for the 
reclamation of arid and semi-arid lands in the said States.''
    There is no reason why irrigation projects on Indian 
reservations such as WIP or Wind River in Wyoming should be 
denied access to the Reclamation Fund dollars, particularly at 
a time when the fund is flush and we understand they have $12 
billion in it. These funds would definitely allow us to fix the 
project and use our treaty water on our reservation.
    Once again, I thank you, and I would be pleased to answer 
any questions. I also have an article from the Yakama Herald 
where the BIA was almost, the water irrigators filed suit 
against the BIA, a tort claim, to submit with my testimony. 
Thank you.
    [The prepared statement of Ms. Jim follows:]

   Prepared Statement of Hon. Ruth Jim, Council Member, Confederated 
                 Tribes and Bands of the Yakama Nation
    My name is Ruth Jim. I am a member of the Yakama Nation's Tribal 
Council and Chair of the Tribal Council's Roads, Irrigation and Land 
Committee. Our Tribal Council is the governing body of the Yakama 
Nation and of the Yakama Reservation. For many years our Tribe has been 
dealing with problems related to the Wapato Irrigation Project, a 
Bureau of Indian Affairs irrigation project on the Yakama Reservation.
I. Background
    The Wapato Irrigation Project (``WIP'' or ``Project''), operated by 
the Bureau of Indian Affairs (BIA), is an Indian irrigation project 
located entirely on the Yakama Indian Reservation. WIP operates under 
the direction of the Bureau of Indian Affairs Regional Director. The 
Yakama Reservation covers an area of approximately 1.7 million acres in 
south central Washington State. Water was reserved by the Yakama Nation 
in the Treaty of June 9, 1855. The Nation's Treaty water is delivered 
through WIP to Tribal and allotted lands. The three units comprising 
the WIP have a combined total between 140,000 and 150,000 acres of land 
within their boundaries.
    Irrigation under the auspices of the BIA began in the Nineteenth 
Century on the Reservation in the Toppenish Creek area shortly after 
the Reservation was created. Irrigation also occurred from Ahtanum 
Creek which forms the northern border of the Reservation. Assistance by 
the Federal Government for the provision of irrigation water from the 
Yakima River itself was initiated by the Indian Service (which is now 
the BIA) with the construction of the Irwin or Old Reservation Canal in 
1896-1897.
    WIP was authorized by the United States government and planned by 
the BIA in the early 1900s. In 1912, a report from the Department of 
the Interior was presented to Congress which confirmed that the water 
provided to the Yakama Nation from the Yakima River was inadequate. As 
a result of this report the Secretary was ordered in the 1912 
Congressional appropriations act to develop a plan to get more Treaty 
water onto the Reservation:

         That the Secretary of the Interior be, and he is hereby, 
        authorized and directed to investigate the conditions on the 
        Yakama Indian Reservation . . . with a view to determine the 
        best, most practicable and most feasible plan for providing 
        water for such lands . . . 

        Act of August 24, 1912, 37 Stat. 518

    A report was also produced by Congress that recommended that work 
proceed on enlargement of WIP for the use of additional Treaty water 
for the Yakama Reservation. ``Report of the Condition of the Yakama 
Indian Reservation, Washington,'' H. Rept. Doc. No. 1299 (62nd Cong., 
3d Sess.) (Jan. 24, 1913). Pursuant to this authority and this Report, 
Congress appointed a commission to investigate and make recommendations 
on providing additional Treaty irrigation water for the Yakama Nation 
and its Reservation and the ``construction of an irrigation system'' on 
it. Act of June 30, 1913, 38 Stat. 77, Sec. 23. Most of the facilities 
comprising the Project were constructed between 1917 and 1950.
    WIP is divided into three units. The surface water for the bulk of 
the irrigated land is diverted to the Wapato-Satus Unit from the Yakima 
River near Parker Washington. There are also smaller irrigation units 
on Ahtanum Creek and on Toppenish and Simcoe Creeks which deliver 
natural flow from those creeks for irrigation. Of the designated lands 
entitled to delivery of water through the Wapato-Satus Unit of WIP, a 
disproportionate number, about 27, 973 acres are idle Indian lands as 
of 2000. ``Idle'' means in this context that these lands are entitled 
to a delivery of water through WIP but are not being irrigated. The 
land is not being irrigated due to a number of factors outside of the 
control of the owner including an inability of WIP to actually deliver 
water to many of those acres. Some of the idle land included in the 
project is marginal for irrigation due to slopes and other factors such 
as its location near the end of laterals resulting in poor water 
supply. Such land can be farmed but requires the investment of a great 
deal of money that is not available. Up to 7,000 acres of such land was 
included in the project in the 1930's with the understanding that it 
would not pay O & M because it could only occasionally be farmed. The 
problems for these lands specifically and the Project in general can be 
corrected but it will take a great deal of time and money to do so.
II. Problems With the Wapato Irrigation Project
    As the above shows, WIP has been in existence for over a hundred 
years. Many of the constructed works are between 50 and 100 years old. 
Because of a lack of funds, necessary maintenance for this Project has 
been repeatedly postponed. As it relates to all of the BIA irrigation 
projects the Government Accountability Office has concluded that 
because `` . . . .the BIA has historically not had adequate funds to 
operate and maintain the projects, the projects are in a serious state 
of disrepair.'' Indian Irrigation Projects--Numerous Issues Need to Be 
Addressed to Improve Project Management and Financial Sustainability 
GAO 06-314 (Feb. 2006) at p. 30. Reviews of WIP, in particular, have 
repeatedly found problems in funding. In 1995 the Inspector General's 
office of the BIA found that `` . . . sufficient funds were not 
available to properly maintain the Project, and it has deteriorated to 
the extent that several studies have concluded that the continued 
ability of the Project to deliver water is in doubt.'' Final Audit 
Report of the Wapato Irrigation Project, Bureau of Indian Affairs, (No. 
95-I-1402) (Sept. 30, 1995) at p. 5. The Inspector General found that 
WIP budgets would exclude the ``costs of needed capital improvements . 
. . '' thus creating a situation where `` . . . maintenance was 
performed only on an exceptional basis, whenever funds were available 
to the Project.'' Id. at p. 6. The Inspector General concluded that `` 
. . . [t]he lack of adequate maintenance, combined with the increased 
age of Project facilities, has resulted in the deterioration of the 
Project.'' Id. This was followed by a later GAO report on WIP. See, 
Indian Programs, BIA's Management of the Wapato Irrigation Project, 
GAO/RCED-97-124 (May 1997). Most recently the BIA has released a report 
prepared for it by Dowl HKM which estimated that the cost of 
rehabilitation and replacement of failing WIP facilities to be between 
136 and 276 million dollars in 2013 dollars. See, Engineering 
Evaluation and Condition Assessment, Wapato Irrigation Project, Vol. 1 
(Oct. 2013) at p. vi (Executive Summary).
    Part of the problem is due to the age of the Project. However, this 
problem was exacerbated by the Department of Interior's decision in the 
early 1980's to classify the Wapato-Satus Unit as ``financially able to 
pay the full cost.'' Report of the Current Status of Indian Irrigation 
Projects Administered by the Bureau of Indian Affairs (May 1988) at p. 
23, 25. The Wapato-Satus Unit was arbitrarily listed as a Category I 
project which the BIA called one that is `` . . . self-supporting, and 
water users are required to pay the full cost of operation.'' Id. at p. 
23. But WIP was never self-supporting. Hundreds if not thousands of 
acres of Indian land within the Wapato-Satus Unit have never been 
irrigated resulting in less land producing adequate funds to pay O & M. 
\1\
---------------------------------------------------------------------------
    \1\ Indeed some Tribal and individual lands that were designated 
for the delivery of WIP water were known to be marginal lands at the 
time they were included and have rarely or never been irrigated.
---------------------------------------------------------------------------
    Until the 1980s, appropriated funds subsidized the operation and 
maintenance costs for this idle land. The cessation of annual 
appropriated funds in the 1980s unfortunately coincided with the 
increase of idle lands. Marginal lands had previously been planted with 
sugar beets. When the sugar beet industry collapsed in the Yakama area 
about the same time, the idle lands increased dramatically. The U.S. 
should have determined then that WIP was no longer self-supporting 
(without conceding it ever was) and started providing appropriated 
funds but failed to do so. This meant that there were fewer funds from 
O & M coming into WIP to pay for its operation precisely at the same 
time that federal appropriations also stopped. \2\
---------------------------------------------------------------------------
    \2\ The fact that the BIA would charge Indian land owners O & M 
fees for water delivery on lands that had never received any water was 
confounding to the Indian land owners. Since the land (a) wasn't 
getting any water; and (b) wasn't generating any income from crops to 
pay O & M, many of the land owners didn't or couldn't pay their 
assessments and there were no longer federal funds to help make up the 
difference.
---------------------------------------------------------------------------
    While there has been disagreement with BIA concerning the causes of 
the deferred maintenance problem on WIP and the liability of Indian 
owners of idle land to pay the O & M, there is no disagreement about 
the underlying deferred maintenance problem. Indian people and the 
Yakama Nation itself have been unwilling to pay O & M on this long term 
idle land (including land that has never been irrigated) merely to 
subsidize the federal government and non-Indian farmers. In many cases 
WIP cannot even deliver water to these idle lands due to deteriorated 
or non-existent delivery infrastructure.
    The deferred maintenance has helped cause the following problems 
among others:

        a.)  Supplies of water delivered through WIP are increasingly 
        unreliable due to deteriorating infrastructure. Last year there 
        was a failure of pumps on Unit 2 which caused a delay and 
        failure to deliver water to certain trust and fee lands 
        serviced by the Unit 2 Canal of WIP. Many other key facilities 
        critical to the operation of WIP are in a similar state of 
        disrepair. For example, the Main Diversion headgates and flow 
        control system are failing making it difficult to open and 
        close the gates and regulate diversions from the Yakima River.

        b.)  Leaky, unlined delivery canals have made irrigation 
        deliveries more difficult and inefficient. Lack of annual 
        cleaning and maintenance programs for these canals exacerbate 
        these problems.

        c.)  An increasing inability to convey irrigation water within 
        the WIP delivery system has made it more difficult to fully 
        deliver water to idle designated trust and allottee lands. This 
        has led to parcels designated for delivery not being leased and 
        a loss of assessed income to the WIP.

        d.)  Antiquated diversion structures and leaky, unlined 
        delivery canals result in poor water management and conveyance 
        losses. This has required the diversion of more water to meet 
        irrigation requirements on Ahtanum, Toppenish and Simcoe 
        Creeks. Downstream from the diversion points the project spills 
        canal water and discharges polluted return flows to Toppenish 
        and Simcoe Creek, then diverts these return flows onto other 
        portions of the WIP Project thus often impairing other natural 
        resources in these Creeks and degrading Cultural sites. While 
        instream flow for fish and other aquatic life is senior in 
        priority to all irrigation rights, pressure to divert extra 
        water for irrigation inevitably puts pressure on the 
        environment and the Yakama Nation's natural and cultural 
        resources. The Wapato Irrigation Project has a profound impact 
        on Toppenish Creek and its tributary Simcoe Creek, which harbor 
        their own distinct population of steelhead trout. Ahtanum, 
        Toppenish and Simcoe creeks are used as both a water supply and 
        a waste conduit by the Project. The Yakama Nation has 
        conceptual designs for using natural stream water more 
        efficiently, and for rerouting Project spills and return flows 
        directly to canals for use on Project lands without entering 
        these natural streams, but the Project lacks the funding to 
        fully develop and implement them.

III. Conclusion
    The chronic deferred maintenance can be reduced if Congress does 
the following:

        a.)  Adopts S. 715, particularly Title IV, so as to allow 
        access to the Reclamation Fund (which now has over $11 billion 
        dollars in it) to be used to address deferred maintenance on 
        Indian Irrigation Projects and to identify WIP as a priority 
        project for the use of these funds.

        b.)  Amend the Yakima River Basin Water Enhancement Project 
        (YRBWEP), P.L. 103-434, to increase funding levels for proposed 
        WIP improvements to account for inflation and projected 
        increased project costs. YRBWEP currently provides $23 million 
        in authorization for WIP improvements. YRBWEP was enacted to 
        address some of the water availability and fisheries issues 
        both on and off Reservation. Unfortunately, this authorizing 
        language for the Yakama Reservation, which was passed during 
        the 103rd Congress, does not provide for adjustments to current 
        day dollars. This lack of adjustment to current day dollars is 
        inconsistent with other sections of YRBWEP which do provide 
        adjustments for inflation for other portions of the Act. We 
        believe that this exclusion of the WIP improvement project 
        funding from having an inflation adjustment was a technical 
        oversight. This is an important issue to resolve because 
        funding of the Priority Irrigation Water Conservation and 
        Management Measures Plan for the Wapato Irrigation Project 
        (Priority Measures Plan) \3\ developed through the YRBWEP 
        program will require approximately $53 million (in 2004 
        dollars) to complete. The Priority Measures Plan was developed 
        to identify priority items for WIP conservation and 
        improvements after a much more comprehensive list of 
        rehabilitation and reconstruction items for WIP were determined 
        to exceed the YRBWEP authorization. Thus a shorter (although 
        certainly not complete) list of priority items was identified. 
        Without the ability to adjust the original $23 million 
        authorized for this project for inflation and provide an 
        increase in the original authorization limit amount, YRBWEP 
        will not provide the necessary funding to complete the 
        construction of the conservation measures outlined in the WIP 
        Priority Measures Plan.
---------------------------------------------------------------------------
    \3\ The Plan was partially certified by the Secretary of Interior 
for funding and implementation through the YRBWEP. Its major components 
consisted of upgrading the Satus Unit of the WIP through installation 
of a new downriver pumped diversion on the Yakima River and piping 
water to users in the Satus, improved measurement facilities to enable 
better Project water management and measurement of on-farm water 
deliveries, development of a tiered O&M assessment classification for 
irrigated parcels and creation of a water transfer/leasing system to 
enable irrigation water transfer within the WIP.

        c.)  Congress should also request that the Secretary of the 
        Interior consult concerning the YRBWEP Priority Measures Plan 
        and help implement this so as to address the underlying WIP 
        problems. The Priority Measures Plan was partially certified on 
        August 28, 2006 in a letter from the Secretary's office. 
        However, the Secretary did not at that time certify two 
        components of the Plan concerning a change in the WIP operation 
        and maintenance rate structure and a plan to facilitate water 
        leasing and transfer within the Reservation. The Secretary has 
        agreed to continue to work on this without certification to 
        address the WIP structural problems. We ask your help in 
        facilitating resolution of these issues and provide authorized 
        funding for these key components of the Wapato Irrigation 
        Project.
    Attachment
Water worries persist with Wapato Irrigation Project--posted on July 2, 
             2014--by Ross Courtney, Yakima Herald-Republic
    WHITE SWAN--Federal authorities have declined to award damages to 
farmers who claimed they lost crops last year due to neglience that 
contributed to broken pumps and motors at the beleaguered Wapato 
Irrigation Project.
    Now many of those growers plan to sue.
    ''They denied every one of those claims,'' cattle rancher Larry 
Doman said. ``Paid nothing, accepted nc responsibility.''
    After a few months of easing tensions this spring, frustration is 
high again on the Unit 2 canal, a remote ditch that irrigates 3,336 
acres of orchards, hay, mint and other crops southeast of White Swan, 
along the base of the Toppenish Ridge.
    Officials with the Bureau of Indian Affairs, which operates the 
Wapato Irrigation Project, denied a total of between $750,000 and $1 
million in tort claims filed by ii farmers who say a June 2013 failure 
at the pumphouse that supplies the canal left them with inadequate 
water during the hottest stretch of summer.
    Fields of corn and hay withered and died as growers prioritized 
their irrigation rotation on the highest value crops.
    Bureau attorneys argued the farmers provided no evidence the 
problems were created by negligence.
    ''After reviewing your claim, I find no credible evidence to 
establish any negligent or wrongful act or omission on the part of the 
government in this matter that would qualify for compensation under the 
FTCA (Federal Tort Claims Act),'' wrote Alexandra James, the regional 
solicitor for the bureau in Portland, in a letter to all ii growers. 
``Accordingly, your claim is hereby denied.''
    Some of the growers are searching for attorneys to help them take 
the fight to federal court.
    ''I can't blame them,'' said Bodie Shaw, deputy regional director 
of the bureau's Northwest Regional Office in Portland. ``I've been a 
farmer. If put in the same situation, I would do the same thing.''
    Doman is trying to rally support for a class-action case, hoping to 
find strength in numbers.
    ''The smart move for these guys is for all of us to band 
together,'' Doman said.
    Some farmers are preparing an appeal directly to the BIA while also 
exploring a lawsuit, which must be filed within six months, said Aaron 
Olson, another denied Unit 2 rancher.
    Troubles with equipment and canals are nothing new on the 17 
irrigation districts operated by the bureau throughout the West. 
Scathing Government Accountability Office reports dating back to the 
1970s decry weed-choked canals, dilapidated fish screens and numerous 
other maintenance deficiencies, as well as hundreds of millions of 
dollars in funding shortages due to complicated assessments and billing 
disputes.
    The irrigation projects must pay for their own maintenance and 
operations expenses through grower assessments. They receive no 
subsidies from the federal government, Shaw said.
    The Wapato Irrigation Project, which supplies Yakima River 
irrigation water to 225 square miles of the Yakama reservation, is the 
largest of the 17 and it has the same problems as the rest. But things 
were worse than usual last year on the Unit 2 canal.
    The canal is supplied by the Toppenish Creek Pumphouse, built in 
1933 and housed with World War II-era equipment.
    Early last summer, a pipe that burst drenched pumps and motors, 
forcing officials to haul in temporary pumps, which ended up having 
their own mechanical glitches.
    The problems combined to leave growers with rationed water during 
the hottest periods of the summer and prompted the project to send all 
three motors and some of the pumps to Portland, Idaho and Spokane for 
repairs to the tune of nearly $650,000.
    ''They're arguing that no WIP employee is responsible for those 
pumps going down,'' Olson, using an expletive, said. He lost much of 
his corn and hay last year.
    Both farmers and irrigation project officials have discussed the 
need for maintenance, specifically at the Toppenish Creek Pumphouse, at 
least as early as 2011, according to meeting minutes and letters of the 
Yakama Reservation Irrigation District, the association of water 
clients that pays the Wapato Irrigation Project through annual 
assessments.
    ''We were screaming this needed to be taken care of,'' Olson said.
    Meanwhile, the pumphouse problems still are not completely fixed.
    The facility has a total of four pumps.
    One is a small ``primer'' pump, used just in the startup process 
each season.
    The biggest is a 1,500-horsepower machine that, when operating 
properly, sends roughly 60 cubic feet of water from a Toppenish Creek 
pool up the slope of Toppenish Ridge to the headwaters of the Unit 2 
canal.
    Two others are 800-horsepower backup pumps that together provide 
about the same amount.
    Earlier this spring, the two smaller pumps were reinstalled and 
hooked up to their motors. They are now providing 57 cubic feet of 
water--just shy of the canal's capacity of 60.
    The motor of the big pump, sent away for rebuilding, still is not 
working. Meanwhile, one of the smaller pumps has a bearing with a 
tendency to get too hot, said Ed Lewis, administrator of the Wapato 
Irrigation Project.
    That means the whole operation is relying on dicey backup 
equipment, much like driving a car aroum on an already bald spare tire, 
the growers argue.
    Lewis said Riverside Electric Motor & Pump Specialists, the Parma, 
Idaho, contractor hired to rebuik the motor for the large pump, 
delivered by the May 31 deadline. But electrical problems have plagued 
the equipment since then and the contractor's electrician took weeks to 
visit the Yakima Valley to diagnose it himself, Lewis said.
    Now, the equipment is scheduled to be repaired by July 7, Lewis 
said.
    The contractor has reliably repaired equipment before, Lewis said. 
But he admitted he is getting frustrated.
    ''If we can't get this thing resolved ... we'll have to start 
talking about voiding out the contract, doing something there,'' he 
said.
    Simply buying new pumps is way out of the project's price range, 
Lewis said. They would have to be custom-built.
    Lewis declined to discuss the tort claims but disagreed that 
neglect caused the problems.
    ''I would disagree with that statement,'' he said.

    The Chairman. Thank you, Councilwoman Jim. I appreciate 
your testimony.
    Mitchel Cottenoir, you are up.

        STATEMENT OF MITCHEL T. COTTENOIR, TRIBAL WATER 
            ENGINEER, EASTERN SHOSHONE AND NORTHERN 
           ARAPAHO TRIBES OFFICE OF THE TRIBAL WATER 
                            ENGINEER

    Mr. Cottenoir. Chairman Tester, Vice Chairman Barrasso and 
members of the Committee, thank you for inviting me to 
represent the Eastern Shoshone and Northern Arapaho Tribes to 
appear before you today.
    I have submitted a detailed statement and now I will 
summarize that statement. As Senator Barrasso earlier stated, 
little has changed on the Wind River Irrigation Project since 
the April 2011 field hearing held in Riverton, Wyoming. 
Operation and maintenance assessments have continued to rise 
and deferred maintenance continues to rise as well. The Bureau 
of Indian Affairs, the entity that owns and operates the 
project, continues to not have a long-term plan for 
rehabilitation nor a short-term plan for rehabilitation. The 
major rehabilitation efforts that have been undertaken have 
been led by the Eastern Shoshone and Northern Arapaho Tribes.
    The Bureau of Indian Affairs Irrigation staff at Wind River 
is significantly understaffed and the system is operated 
inefficiently with only minor necessary improvements. In an 
effort to provide the required operational and maintenance 
needs of the system the Tribes have encouraged irrigators in 
the system to form users associations. These users associations 
negotiate cooperative assistance agreements, CAAs, with the 
Bureau of Indian Affairs to assume the operation and 
maintenance on their designated portion of the system. A 
percentage of the irrigation assessment is returned to the 
association to provide funding for operation staff and needed 
maintenance. Under the CAA the association has seen a dramatic 
improvement over the overall operation and maintenance of their 
part of the system compared to the past service provided by the 
Bureau of Indian Affairs. Nevertheless, the overall project is 
still in dire need of major improvement.
    It is hoped that each association can accumulate a 
rehabilitation fund that can be leveraged to acquire additional 
funding from sources such as the Wyoming Water Development 
Commission. The Eastern Shoshone and Northern Arapaho Tribes 
strongly endorse the Barrasso amendment, Title IV of S. 715, 
the Authorized Rural Water Projects Completion Act. The funds 
that would be provided through this bill would provide for the 
much needed rehabilitation of the Wind River Indian Irrigation 
Project that has for decades been neglected by the Bureau of 
Indian Affairs.
    Additionally, these funds could be leveraged to acquire 
additional funding from the State of Wyoming. While we 
understand that S. 715 is not pending before the Indian Affairs 
Committee, the Eastern Shoshone and Northern Arapaho Tribes ask 
you as individuals to support successfully moving the bill 
forward.
    The Reclamation Fund now has surplus funds in it, certainly 
more than has been expended in any one year. We live in the 
middle of one of the Reclamation States. It is really not fair 
that Indian Irrigation projects have not previously been able 
to tap into that funding.
    The Tribes have compiled a successful track record doing 
rehabilitation work on the project. In 2004, in an effort to 
facilitate the rehabilitation of the Wind River Irrigation 
Project, the Eastern Shoshone and Northern Arapaho Tribes, 
through the efforts of the Wind River Water Resource Control 
Board applied to and were granted a $3.5 million grant from the 
Wyoming Water Development Commission to aid in the 
rehabilitation of irrigation structures. The State 
appropriation was a 50 percent grant that required an 
additional $3.5 million in matching funds before the State 
funds could be used. Once again through the efforts of the Wind 
River Water Resource Control Board, in conjunction with the 
efforts of Senator Mike Enzi, a Federal appropriation of $3.72 
million was secured to match the $3.5 million in State funds.
    These funding sources were utilized to rehabilitate 15 
major structures that were crucial to the operation of the 
irrigation system and were considered to be in critical need of 
repair or replacement. The total cost of this phase of the 
rehabilitation project was $7.7 million. Without the efforts of 
the Shoshone and Arapaho Tribes, this phase would not have even 
taken place.
    The current Federal and State appropriations have been 
depleted now, and the Water Resource Control Board is going 
forward with approaching the State of Wyoming to acquire 
additional funds for rehabilitation. The Eastern Shoshone and 
Northern Arapaho Tribes again, once again, endorse the Barrasso 
amendment to S. 715.
    Maintenance fees on the Wind River Irrigation Project 
continue to rise. And our maintenance continues to decrease. 
According to a 2008 HKM assessment, the total replacement cost 
is about $69.6 million. Today those costs are $77.1 million.
    I could go on more and more about the Wind River Irrigation 
Project, but it is clear that the Bureau of Indian Affairs has 
neglected it over decades. We encourage this Committee to help 
move S. 715 forward to help with our further irrigation rehab.
    Thank you once again for having me, and I look forward to 
answering your questions.
    [The prepared statement of Mr. Cottenoir follows:]

  Prepared Statement of Mitchel T. Cottenoir, Tribal Water Engineer, 
   Eastern Shoshone and Northern Arapaho Tribes Office of the Tribal 
                             Water Engineer
    Chairman Tester, Vice Chairman Barrasso and members of the 
Committee, thank you for inviting me as a representative of the Eastern 
Shoshone and Northern Arapaho Tribes to appear before you today.
    Little has changed on the Wind River Reservation Irrigation Project 
since the April 2011 Field Hearing held by Senator Barrasso in 
Riverton, WY. Operation and Maintenance Assessments have continued to 
rise and deferred maintenance continues to rise as well. The Bureau of 
Indian Affairs, the entity that owns and operates the project, 
continues to not have any long term plan for rehabilitation of the Wind 
River Irrigation Project. The major rehabilitation efforts that have 
been undertaken have been led by the Eastern Shoshone and Northern 
Arapaho Tribes, the Wind River Water Resource Control Board and the 
Office of the Tribal Water Engineer.
    The Bureau of Indian Affairs Irrigation staff at the Wind River 
project is significantly understaffed and the the system is operated 
inefficiently with only minor necessary maintenance. In an effort to 
provide the required operational and maintenance needs of the system 
the Tribes have encouraged irrigators in the system to form water users 
associations. These associations have negotiated Cooperative Assistance 
Agreements (CAA) with the Bureau of Indian Affairs to assume the 
operation and maintenance of their designated portion of the system. A 
percentage of the irrigation assessment is returned to the association 
to provide funding for operating staff and needed maintenance. Under 
the CAA each association has seen a dramatic improvement the overall 
operation and maintenance of their part of the system compared to the 
past services provided by the Bureau of Indian Affairs. Nonetheless the 
overall project is in dire need of major repair.
    It is hoped that each association can accumulate a rehabilitation 
fund that can be leveraged to acquire additional funding from sources 
such as the Wyoming Water Development Commission. We have had some 
success in such efforts in recent years.
    The Eastern Shoshone and Northern Arapaho Tribes, the Wind River 
Water Resource Control Board and the Office of the Tribal Water 
Engineer strongly endorse the Barrasso amendment (title IV) to S. 715, 
the Authorized Rural Water Projects Completion Act. The funds that 
would be provided thru this bill would provide for the much needed 
rehabilitation of the Wind River Irrigation Project that has for 
decades been neglected by the Bureau of Indian Affairs. Additionally, 
these funds could be leveraged to acquire additional funding from the 
State of Wyoming. While we understand that S.715 in not pending before 
the Indian Affairs Committee, the Eastern Shoshone and Northern Arapaho 
Tribes ask for your individual support in successfully moving the bill 
forward. The Reclamation Fund now has surplus funds in it, certainly 
more than has ever been expended in any year and we live in the middle 
of one of the Reclamation States. It is really not fair that Indian 
Irrigation projects have not previously been able to tap into this 
fund.
    The Tribes have compiled a successful track record doing 
rehabilitation work on the project. In 2003, the Wyoming Legislature 
passed House Bill 144 which allowed the Tribes to participate in state 
funding toward water development projects. That bill was strongly 
supported by both the Joint Business Council and the Wind River Water 
Resource Control Board.
    In 2004 in an effort to facilitate the rehabilitation of the Wind 
River Irrigation Project, the Eastern Shoshone and Northern Arapaho 
Tribes through the efforts of the Wind River Water Resource Control 
Board applied to and were granted a $3.5M grant from the Wyoming Water 
Development Commission to aid in the rehabilitation of irrigation 
structures that were in dire need of repair or replacement. This State 
Appropriation was a 50 percent grant that required an additional $3.5M 
in matching funds before the State funds could be used. Once again 
through the efforts of the Wind River Water Resource Control Board in 
conjunction with the efforts led by Senator Mike Enzi, a Federal 
appropriation of $3.72M was secured in 2005 and 2006 as matching funds 
for the $3.5M in State funds.
    These funding sources were utilized to rehabilitate 15 major 
structures that were crucial to the operation of the irrigation system 
and were considered to be in critical need of repair or replacement. 
These structures include: the Johnstown and Lefthand Ditch diversion 
and waste-way structures on the Big Wind River, the Coolidge Canal--
Trout Creek diversion structure, the Mill Creek--Ray Canal Crossing 
structure, the Ray Canal--South Fork of the Little Wind diversion 
structure, the Coolidge Canal--Little Wind diversion structure, Ray 
Canal 11C, 39C and 59C diversion structures, Coolidge Canal 14B 
diversion structure, the Sub-agency Canal--Little Wind River diversion 
structure, the North Fork of the Little Wind River diversion chute 
structure, and the Willow Creek and Meadow Creek diversion structures 
in the Crowheart area.
    Incorporated in the design and construction of the Coolidge and 
Sub-agency structures are Fish Ladders. In addition to a Fish Ladder, a 
Fish Screen structure was also designed and constructed on Ray Canal. 
The fish passage will mitigate the loss of hundreds of thousands of 
fish to the irrigation system. The fish passage project was a combined 
effort among the Tribes, the US Fish and Wildlife Service, the Bureau 
of Indian Affairs, Trout Unlimited and the State of Wyoming.
    The total cost of Phase I of the Wind River Irrigation 
Rehabilitation Project was $7,713,695.
    Without the efforts of the Eastern Shoshone and Northern Arapaho 
Tribes through the Wind River Water Resource Control Board, even these 
phases of rehabilitation of the Project would not be occurring.
    The current Federal and State appropriations are now depleted. The 
WRWRCB plans on pursuing additional funds from both the Federal 
Government and the State of Wyoming. The Tribes and the Wind River 
Water Resource Control Board request the aid and assistance of both 
Senators Barrasso and Enzi and the Senate Committee on Indian Affairs 
to help secure future funding for the ongoing rehabilitation of the 
Wind River Irrigation System. For this reason, the Eastern Shoshone and 
Northern Arapaho Tribes, the Wind River Water Resource Control Board 
and the Office of the Tribal Water Engineer again endorse the Barrasso 
amendment (title IV) to S. 715, the Authorized Rural Water Projects 
Completion Act. The 38,300 irrigated acres of the Wind River Irrigation 
Project are assessed Operation and Maintenance Fees to finance the 
Irrigation Project's operations, maintenance and administrative 
functions. These O&M assessments have been historically low, but over 
the past 20 years these rates have risen from a low of $10.90 in 1991 
to $22 in 2014. With each irrigation season comes additional assessment 
costs to cover increased budget shortfalls caused by mandated pay 
raises for Bureau of Indian Affairs Irrigation Project employees. Even 
with the rising assessment fees, little rehabilitation efforts have 
been made.
    According to the GAO Report 06-314 dated February 2006, the Wind 
River Irrigation Project was authorized for construction in 1905 but 
construction was never completed.
    The Wind River Irrigation Project is comprised of 3 storage 
facilities, 11 canals and 377 miles of canals and laterals. These 
facilities provide water to 38,300 acres of which 67 percent is Indian 
owned and 33 percent non-Indian owned.
    According to the 1994 Natural Resource Consulting Engineers (NRCE) 
Project Assessment and Plan, no Project-wide rehabilitation of the 
delivery system has occurred since the 1930's. According to that study 
due to deferred maintenance over many years, 60 percent or 1200 
structures were in need of repair or replacement and 45 percent or 190 
miles of canals and laterals need repair or reconstruction. According 
to the study structure failures were routine resulting in the 
progressive loss of control of Project water and that catastrophic 
failure of segments of the delivery system was imminent. According to 
the 1994 NRCE Project Assessment and Plan due to the Project's current 
configuration, it only has 66 acres of irrigated land per mile of 
canal. In comparison, Midvale Irrigation District has over 160 acres 
per mile of canal. As a general guideline, the Bureau of Reclamation 
suggests that irrigation projects, in the region, need at least 140 
acres of irrigated land per mile of canal to be economically self 
sufficient. The study also stated that the resulting poor delivery 
performance had contributed to a progressive deterioration in crop 
quality and the water users' ability to pay assessments. It is apparent 
that the Wind River Irrigation System cannot be considered self 
sufficient.
    The condition of the Wind River Irrigation Project sadly continues 
to deteriorate and little has changed since the 1994 NRCE Wind River 
Irrigation Project Assessment, the 2006 GAO Report numbered 06-314 or 
the 2008 HKM Wind River Irrigation Project Engineering Evaluation and 
Condition Assessment. The 2008 HKM Wind River Irrigation Project 
Engineering Evaluation and Condition assessment estimated the costs for 
needed replacement construction to be $69,640,000. Inflation raises 
those cost to approximately $77,091,500 in 2014.
    Clearly something needs to be done. While we hope the Congress will 
enact S. 715 with the Barrasso Amendment, we understand the odds of 
that happening this year are not good. If funds are not made available 
to deal with the repairs needed, the project will continue to lose 
water, and both the Indian and non-Indian people who rely on the 
project, as well as the fisheries impacted by the project, will all 
suffer. Allowing for congressionally directed appropriations as Senator 
Enzi was once able to do for us needs to be brought back and the 
leaders in the highest levels of the Department of the Interior and at 
OMB need to be forced to own up to what their neglect of this project 
has caused.
    What follows is a report on the Irrigation Rehab Project for which 
the Tribes have submitted Level II Phase II Storage Site Study 
Applications to the WWDC. These studies will identify at least 2 
suitable storage sites on each of the Big and Little Wind Rivers. The 
need for additional storage on the Wind River Reservation has been 
graphically demonstrated during drought years when irrigators have been 
shut off early in the summer months as early as the first or second 
week in July. These photos graphically show what progress looks like, 
i.e., what we can jointly accomplish when we have the funding as well 
as demonstrate what happens when maintains is deferred and the project 
is allowed to deteriorate.
    In order for the rehabilitation effort to move forward, it will 
take a united effort from the Eastern Shoshone and Northern Arapaho 
Tribes, the Bureau of Indian Affairs, the Wyoming Water Development 
Commission, and our State and Federal Legislators.
    Your strong support of the Tribes and their efforts is of the 
utmost importance. Our efforts will bring much needed relief to both 
Tribal and non-Tribal irrigators on the Wind River Reservation.
    We look forward to working closely with you now and in the future. 
Thank you for your time and consideration.

    Attachments

 WIND RIVER IRRIGATION REHAB UPDATE by THE OFFICE OF THE TRIBAL WATER 
                                ENGINEER
    The Wind River Water Resource Control Board and the Office of the 
Tribal Water Engineer appreciates this opportunity to up-date the 
members of the United States Senate Committee on Indian Affairs on the 
progress of the Wind River Irrigation Rehabilitation Project.
    In 2004 the Wyoming State Legislature appropriated $3,500,000 thru 
the Wyoming Water Development Commission to assist in the 
rehabilitation of the Wind River Irrigation Project. These funds were 
matched with two Federal appropriations in 2006 and 2007 totaling 
$3,722,500. The combined funding was utilized to rehabilitate 
irrigation structures in critical need of repair. To this date the 
total estimated cost of rehabilitating the Irrigation Project remains 
in the $90M range.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    During the 2010-2011 and 2011-2012 construction seasons the 
following rehabilitation project structures were completed:

  <bullet> Coolidge--Trout Creek Diversion Structure
  <bullet> Johnstown Diversion Structure
  <bullet> Lefthand Ditch Diversion and Waste Way Structures
  <bullet> Ray Canal--Mill Creek Crossing Structure
  <bullet> Ray Canal Diversion Structure
  <bullet> Coolidge Canal Diversion Structure
  <bullet> Ray Canal Fish Screen Structure
  <bullet> Structures: 39-C, 11-C, 59-C, and 14-B

    Total cost of rehabilitating these structures was $5,097,095.
    In addition to replacing the Ray and Coolidge Canal diversion 
structures, fish ladders were installed on both diversion structures to 
enable aquatic life to migrate the stream above and below the diversion 
structures. A fish screen structure was also constructed in the Ray 
Canal down steam of the diversion structure. The fish screen will 
prevent the loss of thousands of fish to the Ray Canal irrigation 
system. The fish screen structure was built thru the collaborative 
efforts of various agencies. Funding partners for the fish passage and 
screens were: USF&W, Trout Unlimited, the Wyoming Wild Life Trust Fund, 
BIA Wildlife Resources Branch, the WWDC and the Eastern Shoshone and 
Northern Arapaho Tribes. These funding partners contributed an 
additional $720,760.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The 2013-2014 construction season brought this phase of the Wind 
River Irrigation Rehabilitation Project to a close. WWDC and Federal 
Funding have been depleted with the start of the 2014 irrigation 
season. Projects constructed during this period were:

  <bullet> North Fork Chute
  <bullet> Willow Creek Diversion Structure
  <bullet> Meadow Creek Diversion Structure
  <bullet> Sub-agency Diversion Structure

    The total construction costs of these structures were 
$2,616,599.29.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    It should be noted this rehabilitation project has provided an 
economic boost to Fremont County, the State of Wyoming and the Wind 
River Indian Reservation. State and local contractors and sub-
contractors have been utilized during the construction projects. These 
contractors include:

  <bullet> Inberg-Miller Engineers (Riverton, WY)
  <bullet> Lowham Walsh LLC (Lander)
  <bullet> Dowl HKM (Lander)
  <bullet> High Country Construction (Lander)
  <bullet> 71 Construction (Riverton)
  <bullet> Reiman Corp. (Cheyenne)

    This phase of the Irrigation Rehab Project has barely scratched the 
surface of the overall needs of the Wind River Irrigation Project. As 
stated before the estimated cost of total rehabilitation is in the $90M 
range. The Office of the Tribal Water Engineer has begun the process of 
developing a Phase III list of priorities for rehabilitation. This list 
and a cost estimate will be brought to the WWDC during the next funding 
cycle, in November of 2014.
    *Phase III photos of structures on the priority list have been 
retained in the 
Committee files*

    The Chairman. Thank you, Mitchel, thank you for your 
testimony. Thank you all for our testimony.
    Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman. Thanks 
to each and every one of you for bringing these stories to us 
today.
    If I could ask just a couple of questions, first, Chairman 
Old Coyote, in your written testimony, you noted that despite 
some temporary setbacks in improving the Crow Irrigation 
Project, that ultimately progress is being made in the right 
direction. You also noted that the improvements to the system 
did actually provide tangible results.
    Can you just tell us a little bit about how your tribal 
members and the economy can benefit, have benefited or will 
benefit from the improvements to the Crow Irrigation Project?
    Mr. Old Coyote. There is a portion in the settlement that 
anticipates the tribes buying land for farming, taking land 
into trust, using provisions in the settlement and developing 
that land for tribally-owned farms. We will be using those 
provisions as the project develops.
    We do not currently anticipate any significant non-tribal 
development of additional acreage. So that is one of the 
impacts on the tribe.
    Senator Barrasso. Thank you.
    Mr. Cottenoir, last fall we talked a little bit about that 
amendment, S. 715, to the Authorized Rural Water Projects 
Completion Act, which would assist in the rehabilitation of 
Indian irrigation projects. Your written testimony states that 
the irrigation funding could then be leveraged to access 
additional funding for rehab and repairs.
    Can you just tell us a little bit more about how this rehab 
would benefit the tribes, the members, the local economies that 
surround the Wind River Reservation?
    Mr. Cottenoir. Yes, Vice Chairman Barrasso. The funding 
that we could get through S. 715 could be leveraged through to 
acquire funds from the State of Wyoming through the Wyoming 
Water Development Commission. Our previous matching funds were 
acquired through the efforts of Senator Enzi, that was $3.72 
million. We were able to able to match the $3.5 million with 
the State of Wyoming to acquire the $7.7 million that we used 
in our irrigation.
    Those funds over the past few years have been an economic 
boost to not only the Wind River Reservation but to Fremont 
County and the State of Wyoming. We have utilized local 
contractors that provided all the work, all the contractors 
were from within the State of Wyoming. Through our TERO 
ordinance, the contractors had to employ Indian contractors and 
Indian workers. So that provided dramatic boosts to our economy 
over that period of five years.
    Senator Barrasso. The other thing that caught my eye when 
reading your written testimony and also hearing your oral 
testimony today was how the water users on the Wind River 
Reservation have formed associations, associations to assume 
the operation and maintenance of their portion of the Wind 
River Irrigation System. And the associations, as you said, 
have seen a dramatic improvement in the overall operation and 
maintenance of their part of the system compared to the past 
services from the BIA.
    So can you just explain a little why there is such an 
improvement when the associations take over the operations and 
the maintenance of the system?
    Mr. Cottenoir. Yes, Senator Barrasso. As you mentioned, the 
O&M costs on the Wind River continue to rise and the deferred 
maintenance continues to increase. BIA does little if any 
maintenance. It is mostly operations. All the funds that they 
collect go mainly for the statutorily mandated wage increases 
for BIA personnel.
    In our irrigation associations, which the tribes are 
encouraging to be going out and negotiating more and more 
cooperative agreements, the BIA collects the O&M still, but 
then they return a portion of that, probably 50 percent of 
that, to the association. The association goes out and hires 
their own operational people and they have their own 
maintenance schedule. They are able to fund through their own 
efforts the maintenance necessary on their portion of the 
irrigation system. And the Crowheart has two of these 
associations, and we have a Ray Canal Association which was 
just formed. Since the time of the formation of those groups, 
there has been a drastic improvement over the services and over 
the maintenance that has been provided. BIA, through their 
inefficient and ineffective management and operation, they 
can't provide those services and they can't provide the 
maintenance necessary. The CAAs enable the water users to go 
ahead and take care of their needs, the needs that they see 
that are needed and the maintenance and operation that the BIA 
cannot or will not provide.
    Senator Barrasso. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Thank you. Senator Udall?
    Senator Udall. Thank you, Senator Tester, and thank you for 
the courtesies on the time here.
    Let me thank, first of all, all the witnesses. I think you 
have given very good testimony on these irrigation issues. The 
thing that is important here is I think throughout this there 
is a theme about BIA neglect on these irrigation issues that 
this Committee needs to take notice of.
    I have a couple of comments and then a couple of questions 
to Governor Paisano. As you mentioned, Governor Paisano, 
Senator Bingaman had a piece of legislation called the Rio 
Grande Pueblos Irrigation Infrastructure Improvement Act. We 
have built on that act in terms of putting in, Senator Heinrich 
and I, the New Mexico Drought Relief Act. We put that in to 
address this and other irrigation and water delivery issues. It 
calls for the reauthorization of Senator Bingaman's act, and an 
increase in funding for infrastructure. This legislation would 
also authorize emergency and non-emergency funding to further 
support water deliveries and irrigation for New Mexico Pueblos 
and other communities.
    I would also like to just mention the Navajo Irrigation 
Project, which has begun to accumulate a backlog of 
maintenance, despite being years from completion of the 
project. This project is vital to the Navajo economic 
development and is a result of a decades-old agreement with the 
Federal Government. The project is years behind schedule and 
this demands the attention of our Committee and the BIA. I 
would invite my colleagues on the Committee to work with me, to 
increase appropriations for Pueblo infrastructure and for the 
Navajo Irrigation Project and other tribal irrigation funding 
through the Interior Department appropriations.
    Now, Governor Paisano, can you just give us a sense of how 
much of a priority is irrigation infrastructure improvement and 
related water issues for your administration at Sandia Pueblo 
and for the other six Middle Rio Grande Pueblos?
    Mr. Paisano. Chairman Tester, Senator Udall, water is such 
a huge priority. One thing I didn't mention here, because of 
the sensitivity of time, is related to the cultural aspects of 
water, what that means to us. My colleague here, Councilwoman 
Jim, recognized that at the beginning.
    You can't even place a value on that culture, the history 
and the traditions. It is hard to convey in the English 
language. But besides that, water delivery to our farmers in 
order to provide food for our community, food for the families, 
to provide a source of economic development for them, is a 
priority for the six Pueblos of New Mexico. We consistently are 
fighting with the BIA. We are caught in the middle between two 
Federal agencies, that is the Reclamation and BIA. And then 
another third party, the MRGCD, which is a totally different 
entity, and our farmers and the Pueblos are caught in the 
middle.
    We are being left out because we are not the ones writing 
the check. So we typically don't get listened to, so to speak. 
So it is an uphill battle for us. Over the years it has become 
a little bit better with the increased involvement with the 
BIA. But we need funding to help fix the infrastructure in 
order to get that water delivered to the six Pueblos.
    So that is our number one priority right now. Because of 
the cultural sensitivity of it, providing nutrition for the 
members of our communities and to also provide a sense of 
economic development for our farmers in growing higher value 
crops, such as alfalfa, the sweet sudans, and/or foods like 
corn, lettuce, tomatoes, chili, et cetera.
    Senator Udall. Thank you, and it is very important, the 
emphasis on the cultural side of this. You are struggling to 
maintain your language, you are struggling to maintain your 
culture. Water is intimate to that. And the production of 
agricultural products really makes a difference there. I am 
glad you emphasized that, and the other witnesses did too.
    Could you in just a few seconds here, because I am running 
out of time, give us an idea what you think the BIA could be 
doing to be more supportive of your situation? They are a key 
agency here.
    Mr. Paisano. One key thing probably would be the 
instability of the staff. Over the last five years, we have 
gone through three designated engineers. That is the individual 
who is assigned by the BIA to help coordinate this water 
delivery and maintenance of our infrastructure with the MRGCD. 
There is a lot of turnover in the BIA, and that doesn't help 
us. That is probably one key priority that they could help us 
with. Obviously the funding already mentioned.
    Senator Udall. Well, we have to do everything we can, I 
think, Senator Tester, to help push the BIA to get more 
involved in all these irrigation situations. Thank you so much 
for bringing the attention to this. I really, really appreciate 
it.
    The Chairman. Thank you, Senator Udall, for your questions, 
and thank you for your interest in the issue. A lot of these 
problems aren't going to be solved unless we appropriate the 
kind of money we need to be able to support the projects.
    You had a question or comment?
    Ms. Jim. Mr. Chairman, I would like to make a correction to 
my testimony.
    The Chairman. Sure.
    Ms. Jim. I stated $12 million. It is supposed to read $12 
billion. I want you to excuse me for that.
    The Chairman. A small bit.
    [Laughter.]
    Ms. Jim. Thank you for allowing me to make that correction.
    The Chairman. Absolutely. I have a few questions here. 
Chairman Old Coyote, your testimony stated that a couple years 
back there was negotiating between yourselves and the Bureau of 
Rec since your tribal water settlement has been approved. A 
couple of things, what kind of issues came up, but more 
importantly, what is your relationship with the Bureau of Rec?
    Mr. Old Coyote. Thank you, Chairman Tester. There were a 
lot of issues, some technical oversight issues, some on budget. 
The biggest issue I mentioned in my testimony initially was 
that they were requiring the tribe to advance all the money 
from our general fund budget, which was nearly impossible. 
These have largely been resolved, and now we have the master 
plan, which we are hoping, we expect to have approved very 
soon. With a big ramp-up in construction right now, there is 
close to 28 construction jobs. And with the master plan being 
approved, that will ramp up to like 50 for the next three or 
four years.
    So our relationship with BIA, we have always had an 
excellent relationship with Mike Connor. He has been one of the 
most pragmatic and decisive people we have dealt with. Our 
relations with the region have not always been as good, but 
currently are in a fairly good place and we hope they stay 
there.
    The Chairman. The Crow irrigation project was included in 
the 2006 GAO report, which stated the project had over $50 
million in deferred maintenance back in 2006. The maintenance 
for the project was included in the tribal settlement that was 
passed since then.
    Based on your tribe's experience of coupling the irrigation 
infrastructure with water settlements, I just want to make it 
clear, I think you addressed this in your testimony, but I want 
you to make it clear, what advice do you have for us lawmakers 
as far as considering laws that would improve tribal access to 
water and coupling maintenance with water settlements, for 
example?
    Mr. Old Coyote. Chairman Tester, thank you. First, the 
future water settlements must include a sufficient level of 
mandatory appropriations. The Crow Tribe, the Crow Nation is 
extremely fortunate that our settlement included mandatory 
funding, thanks to you and Senator Baucus for seeing the need 
there for mandatory funding.
    Another aspect of funding that Congress should include is 
the flexibility to shift funding among relevant accounts. Right 
now we have a CIP and MR9, both accounts shifting among 
relevant accounts. That is another area that we would make 
suggestions as well.
    The Chairman. Okay. Question for you, Governor Paisano, and 
thank you, Chairman Old Coyote. Your testimony states that the 
BIA pays the Middle Rio Grande Conservancy District for the 
operations and maintenance of the irrigation system on Pueblo 
lands. But that same conservancy district has not done a very 
good job of treating Pueblo lands equally with others. Do they 
give you any reasons for that?
    Mr. Paisano. Chairman Tester, quite honestly, no. The BIA 
has appropriated about a million dollars a year for the 
services. The BIA automatically takes off about $150,000 of 
that for salaries, I guess, for the designated engineer. So 
what is left to negotiate for those services is about $850,000. 
Whatever is left is very little, typically, in order to improve 
our infrastructure. But it is kind of a give and take. It is 
all relationship building in New Mexico. And we don't have a 
good working relationship with the MRGCD at the upper echelon. 
We do with the on the ground folks.
    But the on the ground folks, when we ask them, we 
literally, and I have seen it happen, bribe them to, we will go 
out and get them breakfast burritos, we will take them 
doughnuts, and so forth, and they'll mow our irrigation 
ditches. That is literally what it has come down to, is 
building that relationship.
    But when they get upset at you, they say, sorry, we haven't 
been paid, we are not going to cut the weeds, we are not going 
to fix the ditches. It is quite a mess, quite honestly.
    The Chairman. Is there any accounting of Middle Rio Grande 
Conservancy District's use of the funds that they get from the 
BIA?
    Mr. Paisano. We have started to build our own. That is 
something we have asked to have done. To my knowledge, I don't 
believe it has been officially. We take photographs, we mark 
the date that they are out there doing some work for us. And we 
then give that information to the BIA. Then we somewhat have an 
internal document that we will sign off on before the BIA will 
pay the funds to MRGCD for the services rendered.
    But if they are not paid, once again that goes back to, 
hey, we did this much, and BIA says, oh, no, you only did a 
quarter of a mile, then they stop all work on all the Pueblos 
until they get paid.
    The Chairman. Thank you, and thank you for your testimony 
also.
    Councilwoman Jim, it is good to have you here too. Your 
testimony indicates that the Wapato Irrigation Project was 
erroneously listed as a self-sustaining project by the DOI back 
in the 1980s. So could I ask you, even if we come up with the 
funding to fix the deferred maintenance issue, the project 
itself would not be collecting enough O&M fees to keep the 
maintenance up to date. Is that a correct assessment or am I 
off on that one?
    Ms. Jim. No, it isn't, because the Wapato Irrigation 
Project is on the Yakama Reservation. We do have our lands that 
are owned by tribal members that are leased. But being that 
they are fractionated, then you run into the incapability of 
leasing that land, because maybe the biggest share landowner 
has expired and then so it is in probate. Then you have probate 
upon probate.
    The Chairman. So I would assume you guys are involved with 
the buyback program?
    Ms. Jim. We did put a letter of intent in. But we were 
informed by Genevieve or GG, whatever the lady that is in 
charge now, not to do anything for 60 months.
    The Chairman. We will follow up on that, too. It is an 
important issue for tribes across this Country and it was set 
up to help remedy situations exactly like you have. I say that 
as I am looking at the Crow and they are in the same program, 
probably all of you are, quite frankly.
    You have a number of projects, as per your testimony. And 
you have a large number of acres that aren't irrigated on your 
reservation. If we fix the deferred maintenance, would that 
save enough water to open up some more acres?
    Ms. Jim. Yes, it would. Like I stated in my testimony, 
there have been numerous studies on all Indian irrigation 
projects. During the last study, they said it would cost 
approximately $136 million to $276 million just to do the rehab 
of Wapato Irrigation Project. And this wasn't even recent.
    The Chairman. Well, thank you for being here today, thank 
you for your testimony. We very much appreciate it.
    Mitchel, your testimony discussed some of the construction 
projects to repair the Wind River Irrigation Project in the 
last 10 years, after getting some funding from the State and 
the Feds. Can you estimate how many jobs this funding helped to 
create?
    Mr. Cottenoir. Senator Tester, I believe that it is in the 
order of 100 jobs that were created for construction people. We 
employed five different engineering firms to do design work.
    The Chairman. Over how long of a period?
    Mr. Cottenoir. Since 2006, I believe, is when the design 
work began. The construction phase just concluded this past 
spring.
    The Chairman. Okay. Could you discuss the impact that the 
Wind River Irrigation Project has on both tribal and the non-
tribal community, both, what impact does it have?
    Mr. Cottenoir. The impact on both tribal and non-tribal are 
the same. We are pretty much a checkerboard area, where tribal 
and non-tribal irrigators are side by side. So both tribal and 
non-tribal irrigators are dependent on this inefficient and 
mismanaged system that we have had for decades. It is just a 
hardship for everyone, tribal and non-tribal. It doesn't 
distinguish between tribal and non-tribal.
    The Chairman. This question is for all of you. It is just a 
question on who benefits from these irrigation systems. Is it 
the tribes? I am talking about the tribal government and the 
tribes. Are they able to take advantage of irrigation systems 
and improvements? Or does the primary advantage go to 
individual farmers that may either have or lease tribal lands?
    Mr. Old Coyote. The benefit is to landowners, it increases 
the value of their lands. Also the farmers and ranchers, for 
the crops and farming, it increases their farming as well. So 
the benefit goes to the farmer. The reason why I say farmer is 
that a lot of times, the landowners are tribal members and the 
farmers are non-Indians. So it benefits both.
    The Chairman. Okay. Governor Paisano, how about in your 
neck of the woods?
    Mr. Paisano. Chairman Tester, in New Mexico, in the Middle 
Rio Grande Valley, probably, I have to say that the individuals 
that benefit the most are the non-Pueblo irrigators. You see in 
the pictures that I provided to this Committee, because the 
infrastructure is so outdated and not maintained within the 
reaches of the Pueblo, the water just goes straight through and 
then everything is being cleaned and maintained and so forth to 
non-irrigators. And whatever water we don't use, it gets dumped 
back into the Middle Rio Grande River to help support the 
silvery minnow, which is under the Endangered Species Act, and 
then it goes further south to a reservoir called Elephant 
Butte, that then goes to Texas to help with the compact 
routine, Colorado, New Mexico and Texas.
    The Chairman. Do you have additional acres that you could 
put under irrigation if there was water available to irrigate?
    Mr. Paisano. Yes.
    The Chairman. Councilwoman Jim, same question. Who gets the 
advantage out of the improvements? Is it the tribes, the 
members, the farmers, who is it in Washington?
    Ms. Jim. All of the above.
    The Chairman. Really? Okay.
    Ms. Jim. Yes, because the Tribe owns a lot of land, tribal 
tracts. We still have a lot of Indian landowners. And we have a 
lot of farmers in the Yakima Valley.
    The Chairman. Mitchel, how about you?
    Mr. Cottenoir. Senator Tester, I think I agree, all of the 
above are the ones that get the advantage to improvements on 
our irrigation system. At Wind River we have a water code that 
has 15 beneficial uses, and they are outlined in the code. It 
goes all the way from domestic to cultural to irrigation. But 
each and every one of those uses are held at the same priority.
    I think that ultimately, right now, the people that most 
benefit from our irrigation system are the downstream water 
users, the water users off the reservation. Because of our 
inefficient system, the deferred maintenance, the lack of 
storage, we can't use the water when we have it. So the actual 
beneficiaries of our water at the present are the downstream 
users off the reservation.
    The Chairman. Once again, thank you all. We appreciate your 
testimony and appreciate the answers to the questions today, 
and I appreciate your making the trek here to Washington, D.C. 
Note that the hearing record will be open for two weeks from 
today for any additions.
    With that, this hearing is adjourned. Thank you all.
    [Whereupon, at 3:50 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Edward T. Begay, Chairman of the Board of 
            Directors, Navajo Agricultural Products Industry
Introduction
    Good afternoon Chairman Tester, Vice Chairman Barrasso, and members 
of the Senate Committee on Indian Affairs. I am Edward T. Begay and I 
am the Chairman of the Board of Directors for the Navajo Agricultural 
Products Industry (NAPI), an agricultural company chartered under the 
laws of the Navajo Nation. I am pleased to submit this Statement for 
the Record relating to the Committee's Oversight Hearing titled, 
``Irrigation Projects in Indian Country.''
Background on the Navajo Indian Irrigation Project
    In 1868, the United States Senate ratified a Treaty with the Navajo 
Nation which recognized the importance of agriculture to the self-
sufficiency of the Navajo people.
    In 1962, after ten years of intense negotiations between the Navajo 
Nation, the State of New Mexico, and the United States, Congress 
authorized the Navajo Indian Irrigation Project (``NIIP,'' Pub.L.87-
483), to fulfill, in part, the United States treaty obligations to 
supply water and a farming operation for the Navajo Nation. The 
legislative history, as well as the text of the 1962 statute, makes 
clear the Federal commitment to build an 110,630-acre, irrigated-farm. 
The 1962 Act authorized $135 million for these purposes. In 1970, 
Congress amended the Act and increased the authorized appropriations to 
$206 million. In 2005, the Bureau of Indian Affairs (BIA) indexed this 
figure to 2005 dollars and estimated that there might be as much as 
$229 million in funding that could be appropriated without the need for 
a fresh authorization.
    It was originally estimated that the NIIP would be completed in 
about twelve years, in tandem with a companion project--the San Juan-
Chama Project. The Navajo Nation made valuable concessions in exchange 
for the NIIP, allowing water from the San Juan Basin (to which the 
Navajo Nation had valid claims) to be transported to the Rio Grande 
Basin in New Mexico, for the substantial benefit of non-Navajos. The 
San-Juan Chama Project was completed in 1976, and the residents and 
businesses of the Rio Grande Basin have been enjoying the benefits of 
the bargain for nearly forty years.
    The NIIP construction began in 1964 and fifty-two years later, only 
seventy percent has been completed and, as one would expect, the NIIP's 
physical infrastructure has begun to fall into serious disrepair.
NAPI's Operations and Economic Importance
    On April 16, 1970, NAPI was established by the Navajo Nation 
Council as a tribal enterprise to manage and operate the NIIP. The idea 
behind NAPI was to both manage the NIIP and to create economic 
opportunities for the Navajo people and to build a foundation of 
commitment, pride, and dedication to their Nation.
    Today, NAPI operates a 75,000-acre farm in Farmington, New Mexico, 
generates $69 million in revenues to the Navajo Nation and San Juan 
County, employs more than 417 people in the Four Corners Area, and 
purchases tens of millions of dollars in goods and services both 
locally and across the Nation. In its operations, NAPI has stressed the 
use of the state-of-the-art technology and environmentally-friendly 
practices. NAPI's agribusiness features state-of-the-art farming 
equipment, including high-tech radio control, and a computerized center 
pivot irrigation system that reduces operational costs and efficiently 
manages water resources.
    NAPI produces premier ``Navajo Pride'' brand agricultural products, 
including alfalfa, corn, wheat and small grains, potatoes, and pinto 
beans. NAPI also operates a flour mill and leases land for cattle 
grazing, and specialty crops, including pumpkins, popcorn, and chipper 
potatoes used for potato chips. Our products have earned the 
distinction of being ``New Mexico Grown'' by the New Mexico Department 
of Agriculture.
    Through its Operation & Maintenance Division, NAPI manages the 
operation and maintenance of the NIIP pursuant to Pub.L.93-638 (Indian 
Self-Determination and Education Assistance Act), including Operations 
and Maintenance (O&M), On-Farm Development (OFD), and Agricultural 
Testing Research Laboratory. While the Bureau of Reclamation, a 
contractor to the BIA, is responsible for the planning, design, and 
construction of the NIIP, the BIA has the sole responsibility, 
including funding requirements, to complete the NIIP.
NIIP Funding Inadequacies
    Annual funding for the NIIP O&M was approximately $26 million per 
year during the Clinton Administration and $14 million during the Bush 
Administration. Despite promises of unconditional support by the Obama 
Administration, the budget for the NIIP O&M has been reduced by more 
than $9 million to a paltry $4 million for the past three fiscal years. 
The Fiscal Year 2015 budget request includes $3.384 million for the 
NIIP.
    The NAPI Board believes the NIIP O&M funding is wholly inadequate. 
This level of funding creates a large deferred maintenance backlog. The 
BIA Irrigation O&M account receives approximately $11 million annually 
and is used primarily for court-mandated payments, statutory 
requirements, and water storage costs. Currently, as much as one-third 
of the $3.384 million NIIP O&M funding pays for electricity for 
pumping.
    NAPI is currently facing an urgent dilemma with the NIIP's 3500 
linear foot main canal which requires concrete canal lining replacement 
and drainage embankment repairs. The NAPI Board has urged the BIA to 
address these matters to prevent a possible catastrophic failure of the 
main canal during normal operations, which would result in a failure to 
deliver water to most of the NAPI farming land.
The Authorized Rural Water Projects Completion Act (S. 715)
    In April 2013, former Senator Max Baucus (D-MT) introduced the 
Authorized Rural Water Projects Completion Act (S. 715). The measure 
establishes, in the U.S. Department of the Treasury, a Reclamation 
Rural Water Construction Fund. An amendment sponsored by Vice Chairman 
Barrasso added three additional accounts: the Rural Water Project 
Account, the Indian Irrigation Account, and the Reclamation 
Infrastructure and Settlement Implementation Account.
    S. 715 directs the Secretary of the Treasury to transfer $150 
million and any interest earned from the existing Reclamation Fund into 
the proposed fund annually through 2035. This amount includes annual 
funding of $80 million for rural water projects, $35 million for Indian 
reclamation infrastructure and settlement claims, and $35 million for 
Indian irrigation projects. The bill authorizes appropriations of 
annual deposited amounts plus earned interest to complete underfunded 
rural water projects, settles Indian water claims, and maintains 
irrigation projects on tribal lands. Indian irrigation projects that 
have not been funded for the last fifteen years would be given a 
priority.
    In addition, S. 715 directs the Secretary of the Interior to 
consult with tribal governments and conduct a study that evaluates 
options for improving programmatic, project management, and performance 
of irrigation projects managed and operated by the BIA.
    The NAPI Board strongly supports S. 715 and urges the Committee to 
support passage of the bill in the 114th Congress. Further, we wish to 
thank Vice Chairman Barrasso for his support in proposing a strong 
tribal amendment to S. 715.
Conclusion
    The history of Federal funding and support for the NIIP and related 
activities reveals that partial and delayed funding has resulted and 
continues to result in delayed or derailed economic opportunities, job 
creation, and chronic problems in maintaining physical infrastructure 
and irrigation equipment.
    This concludes my written statement. Thank you for providing me the 
opportunity to submit this Statement for the Record.
                                 ______
                                 
  Prepared Statement of Hon. Fred S. Vallo, Governor, Pueblo of Acoma
    The people of the Pueblo of Acoma are residents of the longest 
continuously occupied community in the United States. For centuries, 
our people have relied upon traditional farming as a means of survival 
and as a deeply held cultural belief. Crops like traditional Acoma 
white corn are used in religious ceremonies. As the Committee is aware, 
torrential rains and floods during 2010, 2011, 2013, and 2014 resulted 
in serious damage to our irrigation facilities. These environmental 
catastrophes paired with years of inadequate maintenance to existing 
structures have created serious problems with diversions along the 
system. We provide this comment in strong support of significant 
funding to restore and renovate Pueblo irrigation ditches.
    Anzac Irrigation Ditch was significantly damaged by flooding 
events, and we have since struggled to initiate and complete repairs 
under Force Account while coordinating traditional irrigation events 
and usage with seasonal restrictions and other flood disaster events. 
Unfortunately, the continual onslaught of environmental events along 
with other issues have resulted in unavoidable delays to our repairs, 
which continually compound the problem of irrigation water delivery and 
progressing damage. In April 2014, we contracted repair services with a 
priority schedule to make full repair and restoration. Concerns over 
potential quantity and unit cost overruns were brought to the attention 
of all participants, including the New Mexico Department of Homeland 
Security and Emergency Management (DHSEM).
    Ditch cleanup and lining removal revealed damage and repairs well 
beyond the original FEMA scope of work. Once the sediment was removed 
from ditches, it was apparent much of the damage sustained was below 
the sediment deposit and normal operational flow level. There is also 
extensive erosion behind the concrete lining that is minimally 
accounted for. Once major cleaning and demolition work was completed, a 
new estimate of the final damage was determined. Unfortunately, the 
damage repairs and costs are substantially more than the original PW 
370 scope of work.
    The use of irrigation water is critical to Acoma Pueblo's inherent 
right as the original and first users of area waters. There is a 
decades-old water litigation court case State v. KerrMcGee that is 
ongoing; in light of that case, it is essential that Acoma continue to 
demonstrate the continued use of waters to farm our lands. Without this 
ability, non-Acoma water users will increase their use and share of 
water, which will negatively impact Acoma Pueblo for issues that are 
beyond the Pueblo's control. Lack of maintenance and environmental 
catastrophes have resulted in the poor condition of our irrigation 
system today.
    The Acoma Pueblo irrigation system is a traditional, cultural, 
sacred site. It is 47.9 miles in length. Every year, traditional 
irrigation Ditch Bosses are appointed by our traditional leaders and 
male members of the community are required to perform seasonal work to 
clean and maintain the ditch using only hand tools. Ditch work is a 
community service. Minimal federal and non-federal funds are used only 
to purchase propane and hand tools. Approximately 85 percent of the 
irrigation system is lined with concrete and is currently under a 
phased assessment project to address the issues outlined above. 
Immediate funding is needed to complete the assessment project, and to 
thereafter improve and repair the 47.9 miles of traditional irrigation 
ditches.
    Clearly, the Pueblo of Acoma, along with other pueblos in New 
Mexico, have a great need for funding to apply to irrigation projects. 
These projects generate jobs and profits not only for tribal members, 
but for non-members as well. Acoma urges Congress to appropriate the 
funds needed for these culturally essential and agriculturally 
necessary projects.
    Thank you for your time and consideration, we would be pleased to 
answer any questions you may have regarding this comment.
                                 ______
                                 
Prepared Statement of Hon. J. Michael Chavarria, Governor, Santa Clara 
                                 Pueblo
    The people of the Santa Clara Pueblo are the original occupants of 
what is now Rio Arriba County, New Mexico; our Pueblo currently numbers 
approximately 3,500. Water plays a major cultural role in our beliefs, 
and we continue to be reliant on traditional farming and agricultural 
practices as well. As the Committee is aware, our Pueblo faces a number 
of issues stemming from the Las Conchas fire. This environmental 
disaster paired with years of inadequate maintenance to the existing 
structure has created serious problems with diversions along the 
system. We provide this comment in strong support of significant 
funding to restore and renovate Pueblo irrigation ditches.
    First, the main ditch inlet from the Rio Grande River must be 
reconstructed to divert water to Santa Clara's irrigation ditches. 
Years of upstream flooding has damaged the structure beyond simple 
repairs; the approximate cost to adequately construct the project is 
$226,575. Monthly maintenance of the river channel to maintain proper 
water flow will be tribally funded. However, major maintenance like 
tree removal and concrete repairs, which have an annual cost of 
$110,000, lack funding.
    Regarding the Canyon Ditch/Guachupangue, this diversion was 
destroyed by flooding subsequent to the Las Conchas fires. 
Approximately 1,000 feet of underground irrigation pipe, repairs to the 
irrigation diversion, and the clearing of 22 culverts from the canyon 
head gate through the Pueblo and to the south fields have been funded.
    Clearing the sediment from the canyon irrigation diversion has only 
been funded once, despite it being necessary monthly maintenance. It is 
currently also funded by Santa Clara. The Guachpanque earthen ditch was 
destroyed; as a result, at least one apple orchard has been lost by the 
Pueblo. Funding is needed for the annual and monthly maintenance of the 
Guachpanque ditch.
    A culvert at the Rio Grande River has been excavated and cleared by 
a contractor at the River Ditch. A survey of the ditch has been 
tentatively funded by the United States Department of Agriculture, but 
is not yet confirmed. River Ditch starts just south of Santa Clara 
Creek at the Rio Grande, and runs south for approximately 3 miles. The 
survey is needed to determine the elevation and slope of the ditch to 
determine if water will flow, or if additional work is needed.
    Santa Clara Pueblo also has a need for funding to hire a seasonal 
ditch caretaker and 6 to 8 temporary laborers for six-week periods to 
clear brush, and dig ditches and culverts. These positions are 
currently funded by the Pueblo. Some specific equipment is needed as 
well, including a wheeled excavator, to dredge the river and canyon 
diversions for adequate flow throughout the season, as well as a farm 
tractor and mower to keep the ditches clear. The latter equipment has 
been partially funded.
    The Main Ditch has yet to be completed--approximately 2 miles must 
be relined with concrete at an estimated cost of $580,000. This project 
is not funded. Additionally, the Pueblo Ditch has smaller culverts that 
are in need of replacement at a cost of $250,000.
    Clearly, Santa Clara Pueblo, along with other pueblos along the Rio 
Grande, have a great need for funding to apply to irrigation projects. 
These projects generate jobs and profits not only for tribal members, 
but for non-members as well. Santa Clara urges Congress to appropriate 
the funds needed for these culturally essential and agriculturally 
necessary projects.
    Thank you for your time and consideration, we would be pleased to 
answer any questions you may have regarding this comment.
                                 ______
                                 
  Prepared Statement of Hon. Clement J. Frost, Chairman, Southern Ute 
                              Indian Tribe
    On behalf of the Southern Ute Indian Tribe (the Tribe), I am 
pleased to submit this statement for the record regarding the Committee 
on Indian Affairs' September 10, 2014, Oversight Hearing on Irrigation 
Projects in Indian Country.
    The purpose of the Oversight Hearing was to receive testimony from 
federal officials and tribal leaders on the current state of Indian 
irrigation projects and the financial resources required to 
rehabilitate and maintain them. The hearing was conducted in the 
context of bills pending in the House (H.R. 4420) and Senate (S. 715) 
known as the Authorized Rural Water Projects Completion Act. The Tribe 
is greatly interested in promoting progress to resolve issues of 
irrigation project deterioration that are a part of the bills' intent, 
and wishes to provide its perspectives on these important matters.
    The Tribe is heartened that the Congress continues to deliberate 
the best method for the United States to meet its obligation to work 
with tribes to resolve an issue of great importance for many of the 
western Indian tribes. Our Tribe has a particular interest in this 
issue because the Pine River Indian Irrigation Project (PRIIP) on the 
Southern Ute Indian Reservation has suffered many decades of neglect 
and mis-management. Wholly inadequate management of the PRIIP by the 
U.S. Bureau of Indian Affairs has resulted in a rehabilitation and 
maintenance backlog variously estimated at between $20 million and $60 
million.
    The PRIIP has been an important part of the economy and culture of 
the local Indian and non-Indian community since the late 1800s. Its 
continued deterioration through the decades has caused economic 
hardship for both Indians and non-Indians. The project long ago reached 
a point where conditions created a disincentive for aggressively 
practicing agriculture. Now, as the Tribe pursues greater efforts to 
maintain a diversified economy, the state of the PRIIP is a major 
impediment to economic progress.
    The disrepair of the system has still not been adequately 
catalogued but the following illustrate the system's deplorable 
condition:

  <bullet> only an estimated 15 percent of the project's 175 miles of 
        canals can be considered in good condition;

  <bullet> some of the project's major diversion structures date to the 
        1930s, with no major rehabilitation or improvements since the 
        1960s;

  <bullet> an estimated 40 percent of the project's irrigable acreage 
        is not being irrigated, and a significant amount of that simply 
        cannot be irrigated given the current state of the project;

  <bullet> the project's largest canal, serving over 4,500 acres of 
        Indian and non-Indian land, has breached twice in less than a 
        year and is only delivering water due to temporary, stop-gap 
        measures;

  <bullet> dozens of smaller drop structures constructed pre-1920s have 
        collapsed and simply been abandoned;

  <bullet> many newer structures have already failed due to erosion, 
        poor design, and poor maintenance;

  <bullet> ditches have been abandoned and lands that were previously 
        irrigated have become derelict, requiring costly 
        rehabilitation; and

  <bullet> erosion has created miles of incised canals and ditches 
        where elevated head-gates no longer allow for the diversion of 
        water to lands that historically were irrigated.

    The vast amount of work that is needed to even bring the system to 
functionality is staggering.
    While the Tribe has worked with Congress in the past on PRIIP-
specific legislation, at this time we are strongly supportive of the 
tribal-specific planning and funding approach outlined in the Senate 
version of the pending legislation, which includes amendments offered 
by Vice Chairman Barrasso. The Tribe believes this approach can be part 
of the way forward in addressing the problems of the PRIIP.
    In addition to our Tribe's pressing need on its own Reservation, we 
strongly support and advocate for a system-wide solution to this issue. 
Furthermore, we believe that the solution to the problem of irrigation 
project rehabilitation, maintenance, and continued operation must be 
based on sound planning intended to create long-term agricultural 
sustainability and economic viability. Only with a clear financial 
basis, and with commitment from both the United States and the tribes, 
can these issues be resolved in a manner that prevents this from 
continuing to be a perpetual burden for the United States and the 
Tribes.
    The Tribe supports both the House and Senate legislation, and 
strongly endorses S.715 with the Barrasso language included and 
encourages Congress to commit to working with affected tribes to meet 
its obligation to resolve this long-standing problem.
    I thank you for considering these comments and would be happy to 
elaborate on the Tribe's experience and perspectives on irrigation 
projects in general and the PRIIP in particular.
                                 ______
                                 
Prepared Statement of Hon. Ronald Trahan, Chairman, Confederated Salish 
                          and Kootenai Tribes

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Prepared Statement of Hon. Marcelino Aguino, Governor, Ohkay Owingeh
    Chairman Tester, Vice Chairman Barrasso and members of the 
Committee, thank you for the opportunity to provide written testimony 
for the recent oversight hearing on irrigation projects in Indian 
Country. I am providing these comments on behalf of Ohkay Owingeh.
    Ohkay Owingeh is located 25 miles north of Santa Fe, New Mexico, at 
the confluence of the Rio Grande and the Rio Chama. The Pueblo Grant is 
within our ancestral lands. Our people have been diverting water and 
capturing rain water for crops for more than 1000 years. Archeologists 
have found our ancestors' irrigated agricultural fields dating to the 
12th century. Our name, Ohkay Owingeh, is Tewa for ``place of the 
strong people'', a truly fitting name to be sure. Ohkay Owingeh is the 
home of the leader of the Pueblo revolt of 1680, Po'pay. Today, Po'pay 
is one of only seven Native Americans honored in the U.S. Capitol with 
a statue in the National Statuary Hall Collection.
    For all of these centuries and relatively until recent times, the 
Pueblo was able to rely upon a clean, and sufficient supply of water. 
Population increases, an increasing demand for water, water quality 
concerns, and drought have caused our water supplies to become less 
reliable. Our ability to maintain our homeland for the future for Ohkay 
Owingeh people depends on our ability to protect our culture and 
livelihood, maintain our traditions and ceremonies, protect our rivers, 
wetlands and lands, and develop our economy. A healthy homeland can 
only be attained through the continued availability of an adequate 
supply of safe and clean water. As we have for centuries, the Pueblo 
continues to rely on irrigated agriculture as a way of life and a key 
part of our economy. Effective, reliable irrigation projects are 
essential for economic development both for the Pueblo and for our 
neighbors, the non-Indian communities that surround us.
    Unfortunately, the condition of water and irrigation projects in 
Indian Country is deteriorating every day. A 2006 Government 
Accountability Office (GAO) study found that irrigation projects in 
Indian Country had hundreds of millions of dollars in deferred 
maintenance costs. There exists a current backlog in maintenance of 
approximately $598 million for 15 projects. And, because maintenance is 
being deferred, the infrastructure is falling further into disrepair 
all across Indian Country.
    There is legislation that would begin to address this problem. But 
much more will need to be done. We support Chairman Tester's bill, the 
Authorized Rural Water Project Completion Act (S. 715) as well as 
Senator Udall and Senator Heinrich's drought relief bill (S. 2470) 
which contain language reauthorizing the Pueblo Irrigation 
Infrastructure Improvement Act. Unfortunately, these two pieces of 
legislation will not fix a problem that has been allowed to worsen with 
years of deferred maintenance costs and severe federal budget cuts. As 
a sovereign government, Ohkay Owingeh is ultimately responsible to 
protect and care for the Ohkay Owingeh people. Consequently, we work 
closely with our non-Indian neighbors, the acequia associations, to do 
everything we can to maintain irrigation ditch systems that, in some 
instances, are hundreds of years old.
    Ohkay Owingeh is in active discussions with the State of New 
Mexico, the United States, Santa Clara Pueblo, the City of Espanola, 
and multiple acequia associations to confirm our right to sufficient 
water to meet our current and future needs while also protecting the 
existing uses of our neighbors. We are currently using surface water 
for irrigation of crops and pasturelands, and to restore native plants 
and the wetlands of the Rio Grande bosque. Our source of water for 
domestic, commercial and municipal uses is groundwater. The aquifer 
underlying the Grant may have unacceptable levels of natural toxins 
such as arsenic. The Pueblo cannot rely upon that groundwater to meet 
its future needs without thoroughly analyzing the water quality, and 
the economic feasibility of using it. It will require several hundred 
thousand dollars to assess the groundwater's quality and quantity. 
Those are funds the Pueblo does not have--Ohkay Owingeh looks to its 
trustee, the United States, for assistance in analyzing its groundwater 
resource. Our Grant is only a small part of Ohkay Owingeh's ancestral 
lands and having safe groundwater is essential to our economic 
security.
    For many years the Pueblo has been restoring the Rio Grande bosque 
for cultural, ceremonial and environmental purposes. It is critical 
that we return the River's natural flow patterns while removing non-
native species while also creating a native habitat for all native, and 
listed endangered species in order to rehabilitate the bosque.
    Water is essential to life for all of us. For Ohkay Owingeh, water 
is woven through every part of our lives--it is necessary for our 
ceremonies, is a part of our traditions, and is central to the Pueblo's 
ability to achieve economic self-sufficiency. The State of New Mexico 
is deeply committed to quantifying the water rights of all of its 
citizens. It has commenced litigation to determine the Pueblo's water 
rights. We must respond. We have made two commitments in that response: 
that we will ensure that our people have a safe, clean, reliable and 
sufficient water for the future, and that our neighbors, the non-
Indians who live with us in these lands, will be able to continue their 
existing uses of water. To achieve both of these goals, it is essential 
that a federal negotiating team be appointed to provide the expertise 
and resources needed to resolve these complex issues in a timely and 
cost-efficient manner. The commitment by the U.S. government of 
sufficient resources to achieve this fair and reasonable settlement is 
considerably more economical than assigning government resources to 
years of litigation of multiple cases in which Ohkay Owingeh must 
assert water rights claims.
    In summary, Ohkay Owingeh supports these bills, and supports the 
efforts of members of Congress to attend to the woefully neglected 
water supply systems of Indian country.
    Thank you for this opportunity to provide testimony on behalf of 
Ohkay Owingeh for the record.
                                 ______
 
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                             Larry Roberts

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre></body></html>
